<html>
<title> - PROVIDING ESSENTIAL SERVICES AND BENEFITS FOR VETERANS IN NEW MEXICO AND ACROSS AMERICA</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                    PROVIDING ESSENTIAL SERVICES AND 
                  BENEFITS FOR VETERANS IN NEW MEXICO 
                           AND ACROSS AMERICA 

=======================================================================

                             FIELD HEARING

                               before the

                         SUBCOMMITTEE ON HEALTH

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 29, 2010
                  FIELD HEARING HELD IN LAS CRUCES, NM

                               __________

                           Serial No. 111-70

                               __________

       Printed for the use of the Committee on Veterans' Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-014 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






















                     COMMITTEE ON VETERANS' AFFAIRS

                    BOB FILNER, California, Chairman

CORRINE BROWN, Florida               STEVE BUYER, Indiana, Ranking
VIC SNYDER, Arkansas                 CLIFF STEARNS, Florida
MICHAEL H. MICHAUD, Maine            JERRY MORAN, Kansas
STEPHANIE HERSETH SANDLIN, South     HENRY E. BROWN, Jr., South 
Dakota                               Carolina
HARRY E. MITCHELL, Arizona           JEFF MILLER, Florida
JOHN J. HALL, New York               JOHN BOOZMAN, Arkansas
DEBORAH L. HALVORSON, Illinois       BRIAN P. BILBRAY, California
THOMAS S.P. PERRIELLO, Virginia      DOUG LAMBORN, Colorado
HARRY TEAGUE, New Mexico             GUS M. BILIRAKIS, Florida
CIRO D. RODRIGUEZ, Texas             VERN BUCHANAN, Florida
JOE DONNELLY, Indiana                DAVID P. ROE, Tennessee
JERRY McNERNEY, California
ZACHARY T. SPACE, Ohio
TIMOTHY J. WALZ, Minnesota
JOHN H. ADLER, New Jersey
ANN KIRKPATRICK, Arizona
GLENN C. NYE, Virginia

                   Malcom A. Shorter, Staff Director

                                 ______

                         Subcommittee on Health

                  MICHAEL H. MICHAUD, Maine, Chairman

CORRINE BROWN, Florida               HENRY E. BROWN, Jr., South 
VIC SNYDER, Arkansas                 Carolina, Ranking
HARRY TEAGUE, New Mexico             CLIFF STEARNS, Florida
CIRO D. RODRIGUEZ, Texas             JERRY MORAN, Kansas
JOE DONNELLY, Indiana                JOHN BOOZMAN, Arkansas
JERRY McNERNEY, California           GUS M. BILIRAKIS, Florida
GLENN C. NYE, Virginia               VERN BUCHANAN, Florida
DEBORAH L. HALVORSON, Illinois
THOMAS S.P. PERRIELLO, Virginia

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.















                            C O N T E N T S

                               __________

                             March 29, 2010

                                                                   Page
Providing Essential Services and Benefits to Veterans in New 
  Mexico and Across America......................................     1

                           OPENING STATEMENTS

Chairman Michael Michaud.........................................     1
    Prepared statement of Chairman Michaud.......................    43
Hon. Harry Teague................................................     2

                               WITNESSES

U.S. Department of Defense, Shirley Bratton, Director, Airman and 
  Family Readiness Center, Holloman Air Force Base, NM, 
  Department of the Air Force....................................    24
    Prepared statement of Ms. Bratton............................    53

U.S. Department of Veterans Affairs:

  Susan P. Bowers, Director, Veterans Affairs Southwest Health 
    Care Network, Veterans Health Administration.................    26
      Prepared statement of Ms. Bowers...........................    56
  Grant Singleton, Director, Albuquerque Veterans Affairs 
    Regional Office, Veterans Benefits Administration............    29
      Prepared statement of Mr. Singleton........................    57
  Guy McCommon, Team Leader, Las Cruces Vet Center, Readjustment 
    Counseling Service, Veterans Health Administration...........    30
      Prepared statement of Mr. McCommon.........................    59

                                 ______

Mesilla Valley Community of Hope, Las Cruces, NM, Pamela Angell, 
  Executive Director.............................................     6
    Prepared statement of Ms. Angell.............................    43

New Mexico Department of Veterans' Services:

  Dalton Boyd, Veterans Service Officer, Hobbs, NM...............     7
      Prepared statement of Mr. Boyd.............................    44
  John M. Garcia, Secretary, Santa Fe, NM........................    11
      Prepared statement of Mr. Garcia...........................    50
Veterans of Foreign Wars of the United States, Department of New 
  Mexico, Alamogordo, NM, Raul V. Sanchez, Commander.............     9
    Prepared statement of Mr. Sanchez............................    46


                    PROVIDING ESSENTIAL SERVICES AND
                  BENEFITS FOR VETERANS IN NEW MEXICO
                           AND ACROSS AMERICA

                              ----------                              


                         MONDAY, MARCH 29, 2010

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                                    Subcommittee on Health,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:00 p.m., at 
the New Mexico State University, Corbett Center Student Union, 
Senate Gallery, Las Cruces, New Mexico, the Hon. Michael H. 
Michaud [Chairman of the Subcommittee] presiding.
    Present: Representatives Michaud and Teague.

             OPENING STATEMENT OF CHAIRMAN MICHAUD

    Mr. Michaud. I'd like to call the Subcommittee on Health to 
order, and I'd also like to thank everyone for coming out this 
afternoon. I look forward to hearing your testimony. I want to 
thank Congressman Teague for inviting me out here, and I also 
want to thank New Mexico State University for their hospitality 
in hosting this hearing today.
    The weather here is a little different than in the State of 
Maine. When I left, it was about 20 degrees, so I want to thank 
you, Mr. Teague, for bringing some warm weather as well.
    Today's hearing would not have been possible, quite 
frankly, without the efforts of Mr. Teague, and I want to thank 
Mr. Teague for his work on veterans' issues. He's definitely 
been a very active member of the Veterans' Affairs Committee. 
I'd also like to thank him for inviting me here today to hear 
what this area of the country has to say about veterans issues.
    Today's hearing will cover a wide range of issues, to 
ensure that our veterans in New Mexico and across the United 
States receive the essential services and benefits that they 
need and deserve. Among the issues that we'll be discussing 
today will be homeless veterans issues, mental health issues, 
reintegration, and outreach and health care for rural veterans.
    In this Congress, we have had several hearings on these 
issues already. For example, the Health Subcommittee, which I 
Chair, held a hearing on rural veterans issues in March of 2009 
and an outreach hearing in May, also in 2009. And under the 
leadership of Chairman Filner, on the Full Committee, we also 
had a hearing on homeless veterans in June of last year.
    I'm happy to share that the house passed H.R. 4810, a 
comprehensive bill to help homeless veterans, on March 22nd of 
2010. H.R. 4810 included two very important provisions that Mr. 
Teague introduced in his bill, H.R. 2504, which would increase 
funding for the Grant and Per Diem Program, and H.R. 3906, 
which would increase funding for supportive service for low-
income veterans family in permanent housing. This year, the 
Full Committee also held a roundtable discussion on issues 
facing veterans who live in rural areas, in January, and 
another roundtable discussion on reintegration issues in March.
    We have learned a lot from the series of hearings and 
roundtable discussions that we have held in Washington. 
However, these issues are of such magnitude that they warrant 
further discussion here today, because each region of the 
country has its own, different issues. I'm pleased to be here, 
and I look forward to the two panels that we have here today 
and listening to what the witnesses have to say about the 
unique challenges facing veterans here in New Mexico.
    I'd like to now recognize Mr. Teague for any opening 
statement that he may have.
    [The prepared statement of Chairman Michaud appears on
p. 43.]

             OPENING STATEMENT OF HON. HARRY TEAGUE

    Mr. Teague. Thank you. Thank you, Mr. Chairman. First, let 
me begin by thanking you for traveling to the beautiful State 
of New Mexico and holding this field hearing in my district. 
One of the biggest goals that I have set for myself is to make 
sure that we are providing the people of southern New Mexico 
was the direct link to the decision makers in Washington, and I 
believe that a field hearing, like this one, is one way in 
which local residents can participate in shaping the 
discussions on and the decisions that take place in our 
Nation's capital. Your help today will help give people a voice 
in our Nation's capital, and I think that's a very valuable 
opportunity for them. Thank you for coming, and I hope that you 
have enjoyed your visit.
    Today, we're going to hear from individuals that are on the 
front lines, in terms of providing for veterans care and 
improving their overall quality of life. The witnesses before 
us today spend their days serving veterans in a variety of 
different and important ways. Whether it is trying to find 
veterans homes, assisting them in filing a U.S. Department of 
Veterans Affairs (VA) claim, or helping them cope with mental 
issues that they are having, these individuals all share in a 
part of that process.
    And while I honestly believe that everyone in the VA is 
committed to providing care of the highest quality to our 
veterans, there is always room for improvement and we, as 
elected officials, are charged with the duty of overseeing the 
VA. We must be diligent in our efforts to ensure that we are 
giving VA the resources that they need, exercising the proper 
oversight, and when necessary, changing or creating laws to 
provide better service for our veterans. Over the last 3 years, 
I believe that the Congress has done much in the way of 
honoring the commitment that we make to these veterans. Our 
Nation asked them to make the ultimate sacrifice, so that our 
Nation could remain free.
    Let me say to all that are in attendance here, that this 
Congress places the highest priority on veterans and the care 
that they receive. I'm proud to say that over the last year 
alone, our Committee has passed significant legislation to 
improve on that care. That, we will be building on those 
successes.
    We were able to provide record increases to the VA budget, 
adding an additional $14.5 billion to the VA over fiscal year 
2009. This amounted to the largest increase in the history of 
the VA. We passed H.R. 1016, which created for the first time 
advanced appropriations for the veterans health accounts, 
ensuring that the management of our medical facilities are 
never denied the funding that they needed to accomplish the 
mission that they have.
    Now, this care of our veterans will not be held hostage due 
to partisan wrangling in Washington, DC. We've worked to 
respond to the changing times by creating a new GI Bill of 
Rights, that ensures that returning veterans will be able to 
pursue an education after they've served their country. The 
Post-9/11 GI Bill of Rights ensures not only that we can open 
the door of higher education to the veterans, but also allows 
them to transfer the benefits to their family members, if they 
so choose.
    We are also working to end some of the problems that we, as 
a Nation, have ignored for far too long. The most glaring 
example of this has been the mental health of our troops and 
our veterans. For far too long, we have not treated the 
invisible wounds of war that many of our troops bear. Whether 
it was because we didn't fully understand the problems 
ourselves or whether it was because we were just glad to have 
our veterans return home to us, there was never a comprehensive 
answer to these afflictions; and, thus, we have been paying a 
terrible price.
    This Congress, working together in a bipartisan manner, was 
able to begin to tackle the problem of mental health amongst 
our troops. I had the distinct honor and privilege of working 
with veterans groups and other more senior members of the 
House, like Mr. Michaud, to insert language in the National 
Defense Authorization Act of 2010, that mandates private face-
to-face mental health assessments for troops that are being 
deployed and returning home from combat. This measure will help 
us to diagnose mental health issues, such as post-traumatic 
stress disorder (PTSD), earlier, and will, in the end, provide 
all of us with the keys to create a healthy homecoming for the 
troops.
    Another issue that we must recognize is that there are a 
growing number of women that are serving in uniform that have 
made huge sacrifices in the service to their country. The 
military is changing, and we must make sure that the VA is 
changing along with it. Women are due the same treatment, 
services, and benefits available to their male counterparts, 
and in many cases, they require a different approach in the 
delivery of their care. Sadly, when we look at the current VA 
system, there are still far too many barriers that exist in 
providing quality care to women warriors, and we need to knock 
them down, and that can't begin to happen quickly enough.
    Seeing that change was needed, the 111th Congress took up 
H.R. 1211, which will begin to change the way we care for women 
veterans. It will provide an expansion of VA services to an 
estimated 1.8 million veterans, and it's long overdue.
    Unfortunately, while the makeup of the military has 
changed, the nature of war has changed as well. While we're 
lucky to live in a day and age in which medical science has 
provided new ways in saving the lives of military personnel 
that have been deployed, we have much to do in assisting those 
wounded warriors with the tools that they need to transition 
back into civilian life.
    We, as a government, did not have the foresight to see what 
types of benefits and services needed to be available to 
disabled veterans that were coming home from the Global War on 
Terrorism (GWOT), and the wounded warriors are not the only 
persons that need assistance. In the vast majority of these 
cases, family members become the full-time caregivers, and 
support for them is needed as well.
    That's why this Committee, under the leadership of Chairman 
Michaud, drafted H.R. 3155. This bill will provide a new set of 
measures to assist family caregivers of our wounded warriors. 
The bill will provide outreach, training, and counseling for 
these family members. It also includes provisions of a bill 
that I drafted, which provides for lodging and sustenance for 
caregivers accompanying a disabled veteran to a medical 
appointment. We recognize that when someone serves their 
country, it is not their sacrifice alone, but the shared 
sacrifice of their family and loved ones, and remember that we 
must honor our commitment to them as well.
    Lastly, this Congress has worked to address an issue that 
is a great shame of our country. It's an issue that we will 
hear a lot about today: Homeless veterans. Every night, 
thousands of homeless veterans sleep in the city streets and 
the country fields of the Nation that they have defended. They 
move about us, while too many citizens look the other way, 
rather than do something to provide them with aid and comfort.
    Working with groups and organizations like the Community of 
Hope, this Congress is taking up the challenge of ending 
homeless veterans once and for all. H.R. 4810, the ``End 
Veterans Homeless Act of 2010,'' takes great steps toward 
providing the VA and local groups the tools that they need to 
accomplish this goal. The bill includes two bills that I 
originally authored to provide an increase to the Grant Per 
Diem Program that provides funding for homeless veterans 
programs, as well as funding for homeless prevention.
    While the Congress has provided a new direction for 
America's veterans, there is much to be done for those that 
fought for this country. While we draft new laws and programs 
in Washington, it is important that we work with individuals on 
the ground, like our witnesses today, to ensure that we are 
counseled by the folks on the front line.
    Once again, I would like to thank Mr. Michaud for his 
leadership, his dedication to our veterans, and for his 
willingness to come here. I would like to thank the staff of 
the Health Subcommittee for their hard work and efforts and the 
witnesses for testifying here today.
    And last, but certainly not least, I would like to ask that 
every veteran that is here today stand up and be recognized, 
because if it weren't for your service and your commitment, we 
would not be here today. Thank you.
    And thank you, Mr. Chairman.
    Mr. Michaud. Thank you very much, Mr. Teague.
    And I'd ask the first panel to come up.
    And while the first panel is coming up, I do want to thank 
all the veterans service organizations (VSOs) for all the hard 
work that they do. As you heard, from the lengthy list of bills 
that we've been able to get passed in Congress, from increased 
funding to advanced appropriations, if it weren't for the 
veterans service organizations, they would not have been 
passed. I want to thank all of you for your continued service 
to our country and for your continued commitment to making sure 
that veterans get the services that they need.
    I will now turn it back over to Mr. Teague to introduce the 
first panel. But before I do, Mr. Teague made a comment about 
working with senior Members of Congress, such as myself. He was 
making reference to time of service, not necessarily age. With 
that, I turn it over to Mr. Teague for the introduction of our 
first panel.
    Mr. Teague. I thought that that went without an 
explanation. I sure would have, yes, thank you all for coming. 
I would like to recognize the panel that is here. First is 
Pamela Angell from the Community of Hope for the homeless 
shelters.
    And, you know, I can't thank you enough for the work that 
you continue to do there, and I want to thank you for that.
    Next is Dalton Boyd. And it's a long way over here, isn't 
it?
    Mr. Dalton. It's a long drive.
    Mr. Teague. Yes, I make that drive a lot, and I'm glad to 
see you come over from the east side to participate today.
    And then, of course, we have Mr. Raul Sanchez, who is the 
State Commander of the Veterans of Foreign Wars (VFW), field 
director. It's quite an honor for all of us here in southern 
New Mexico to have Raul be there and to have him be here to 
participate today.
    And then, at the end, we have Secretary John Garcia, who 
very possibly could be the best friend that veterans in New 
Mexico have, because he's constantly working for the benefit of 
them.
    And I want to thank all of you for coming and participating 
today. It means a lot to me that not only that the Chairman 
came, but that you would come from everywhere to be here, too.
    So, Ms. Angell, could we start, please? Thank you.

STATEMENTS OF PAMELA ANGELL, EXECUTIVE DIRECTOR, MESILLA VALLEY 
   COMMUNITY OF HOPE, LAS CRUCES, NM; DALTON BOYD, VETERANS 
 SERVICE OFFICER, NEW MEXICO DEPARTMENT OF VETERANS' SERVICES, 
HOBBS, NM; RAUL V. SANCHEZ, COMMANDER, VETERANS OF FOREIGN WARS 
OF THE UNITED STATES, DEPARTMENT OF NEW MEXICO, ALAMOGORDO, NM; 
    AND JOHN M. GARCIA, SECRETARY, NEW MEXICO DEPARTMENT OF 
                VETERANS' SERVICES, SANTA FE, NM

                   STATEMENT OF PAMELA ANGELL

    Ms. Angell. Thank you very much for having me. It's really 
an honor to be able to speak today before this panel. My name 
is Pamela Angell, and I'm the Executive Director of the Mesilla 
Valley Community of Hope, an agency that serves homeless people 
in Las Cruces and Dona Ana County. We have a daytime drop-in 
center and, also, we have several U.S. Department of Housing 
and Urban Development (HUD) housing programs and outreach 
services, like laundry and showers and some training programs.
    I am here to address, really, one specific segment of the 
homeless population. I think that a lot of your very new 
programs and the more established Grant Per Diem Program really 
work and will address a lot of homeless issues. But there is a 
population that a lot of us forgot about back in the day, when 
they served in Vietnam and earlier wars, and that there really 
are lost homeless who are forgotten today as well. So I'm 
really only going to be focusing on chronic homelessness and 
what I think is a better answer to help solve their homeless 
problems.
    President Obama and the Department of Veterans Affairs have 
made ending homelessness among veterans a top priority, with a 
5-year goal. If, indeed, the VA and the Obama Administration 
wish to meet this goal, they must shift their policies so they 
can address the needs of all homeless veterans, including those 
we characterize as chronically homeless. And chronically 
homeless is someone who's been homeless four times in the last 
3 years or for 1 year continuously and someone who has a 
disability, whether they recognize it or not.
    In the case of many of our veterans--and here locally, in 
Las Cruces, we've seen 211 veterans signed in during 2009 at 
our agency, and we've met with 84 homeless veterans on a case 
management level. Seventy-eight of those were male, and six of 
those were female. And their disabilities ranged from about 
37--so that's about 50 percent--said that they were physically 
disabled. About 28 had mental disabilities. Twenty-three so 
that's about almost a quarter--have drug/alcohol issues, and 
then another quarter said they have no disability whatsoever.
    But nationwide, it's estimated that about a third of our 
adult homeless population are chronically homeless--or I'm 
sorry--a third of our adult homeless population are veterans. 
And there are no estimates that we have for chronic 
homelessness, but, usually, the chronically homeless are the 
ones that serve earlier. They can be an older population, in 
their 50s and 60s. So those are the ones that I'd like to 
address.
    And I think the VA, with all of its good housing programs 
that it's developing and the vast outreach in that--expanding 
the Grant and Per Diem Program is great, but they come with a 
lot of strict rules and requirements. So I would like the VA to 
consider Housing First. This is a model that's used in HUD, 
that's been used in our Nation for the past 20 years, and it's 
a model that puts housing as the first place you go. It's not 
get sober, get treatment first. It's, here's a house. Then 
we'll let you deal with your issues.
    But the most important thing, I think, for homeless people 
is housing, and a lot of the veterans that we see that are 
homeless and that are chronically homeless, they are very 
disenfranchised. They don't want a lot of services attached to 
their housing. So there's great models out there and programs. 
We have one that we're working on in Las Cruces for chronically 
homeless people. Some of those that are living there are 
veterans, and so far, it has a 66 percent retention rate, as 
far as permanent housing. And that's pretty good for the 
chronically homeless population.
    But Housing First services are client driven. A lot of 
these people do have chronic alcoholism or drug abuse. I'd say 
more alcohol than drugs. And then, also, mental health issues. 
But as long as we dictate and mandate to them, you know, you 
can get housing if you get treatment first, a lot of them are 
going to stay on the streets, and I think that's why a lot of 
them are still on the streets.
    Housing First is housing without a lot of stipulations, and 
from there, they can find it within themselves to get the 
services that they need. And a lot of them will, because a lot 
of them are on the streets with no hope. Once they have a 
house, then they can see a better future for themselves, and 
they will get treatment.
    And it looks like I'm out of time.
    [The prepared statement of Ms. Angell appears on p. 43.]
    Mr. Michaud. Mr. Boyd.

                    STATEMENT OF DALTON BOYD

    Mr. Boyd. Before I begin, I would like to thank Chairman 
Michaud, Congressman Teague, for the opportunity to address you 
today. The issues being discussed in today's hearing are 
critically important to our veterans, to whom I believe deserve 
the full measure of our efforts to provide for them the rights 
and the services they deserve.
    My name is Dalton Boyd. I am employed by the New Mexico 
Department of Veterans' Services. I have the privilege of 
serving our veterans as a veterans service officer. As one who 
works for our veterans on a daily basis, I feel I have a unique 
perspective concerning the needs of our veterans. I see their 
individual needs daily and draw from the resources available to 
aid them in addressing those needs.
    I would like to begin by addressing VA health care for 
veterans in rural areas. I personally believe that the VA 
provides world-class health care, but, as with anything else, 
there's always room for improvement. Veterans in rural areas 
face some unique problems, with fragmented health care being 
one of those problems.
    We have a very good community-based outpatient clinic 
(CBOC) in my hometown of Hobbs, but they provide only basic 
services, with preventive health care being their primary 
focus. Veterans with special needs must travel hundreds of 
miles for treatment by specialists or facilities that can meet 
their needs. For example, veterans from Hobbs with cardiology 
or orthopedic conditions have to travel to Albuquerque for 
treatment, a round trip of 640 miles. Often, these are older 
World War II veterans in their 80s, in poor health, and for 
whom a trip of 640 miles or more for medical care is very 
difficult, if not impossible.
    I realize that fee basis is a very costly undertaking for 
the VA, and I understand the concept that if the VA can treat a 
veteran, they'll provide that treatment at a VA facility in 
part, as a cost-cutting measure. It's my opinion that fee basis 
should be more readily available to veterans in certain 
circumstances. For example, an 85-year-old World War II veteran 
with a serious heart condition or veterans taking chemotherapy 
should be given consideration for care locally through fee 
basis.
    I would also like to address the lack of resources 
available for homeless vets in rural areas. A lot of progress 
has been made in caring for our homeless veterans, to include 
H.R. 4810. Homeless veterans in metropolitan areas have 
numerous options, and we're all grateful that they have those 
options. Those options often do not exist in rural areas. In 
practical terms, homeless veterans that I see in Hobbs have two 
options: Treatment at a shelter locally in Hobbs or enter into 
the substance abuse treatment program at the VA Hospital in Big 
Springs, Texas.
    We do have the New Mexico Veterans Integration Center in 
Albuquerque, the Mesilla Valley Community of Hope in Las 
Cruces, and the New Mexico State Veterans' Home in Truth or 
Consequences (T or C). Our homeless veterans in rural areas 
often are not able to relocate or do not want to relocate to 
areas far from what has been their home and comfort zone. What 
they often seek is temporary assistance within their community.
    I would also like to speak about services for veterans 
transitioning from military to civilian life. New Mexico 
veterans receive readjustment counseling services from the Vet 
Centers located in Albuquerque, Farmington, Santa Fe, and Las 
Cruces. Lea County veterans are serviced by the Midland, Texas, 
Vet Center. The Vet Centers provide readjustment counseling 
services to combat veterans. Most of the veterans they serve 
suffer from PTSD and depressive orders. The Vet Centers serve 
veterans from World War II through present-day combat veterans.
    According to the New Mexico Department of Veterans' 
Services 2008 annual report, there are approximately 179,000 
veterans in New Mexico, with 39,246 Gulf War, Iraq, and 
Afghanistan-era veterans and 52,011 Vietnam-era veterans. The 
bulk of the Vet Centers' clients are Operation Iraqi Freedom/
Operation Enduring Freedom (OIF/OEF) and Vietnam veterans. Of 
course, the VA provides mental health care on a number of 
levels, through the CBOCs, hospitals, and telehealth.
    The Vet Center counselors, as I see them, are the front-
line troops in the battle with mental health problems. They 
have the mobility, they conduct the outreaches, and they take 
their expertise directly to the veterans. Critically important 
is the fact that the Vet Center also provides services to 
family members.
    An article in Psychiatric Times reports rates of PTSD in 
returning troops average 15 to 16 percent and that up to 35 
percent meet the criteria for major depressive disorder. 
Clearly, these rates represent a large number of veterans in 
need of mental health care. As the number of deployed troops is 
reduced and the troops are brought home, the number of troops 
in need of mental health care services will rapidly increase. 
We have to be prepared to meet the needs of the growing number 
of veterans in need of mental health care.
    I appreciate the opportunity to address you today. I hope 
that I've given you a clearer understanding of some of the 
issues facing veterans in rural areas and the tasks the VA 
mental health care providers are confronted with.
    Thank you.
    [The prepared statement of Mr. Boyd appears on p. 44.]
    Mr. Michaud. Thank you.
    Mr. Sanchez.
    Mr. Teague. You may have to scoot the microphone a little 
closer, because it seems to kind of fade out a little bit.
    Mr. Sanchez. How is this?
    Mr. Teague. Okay.

                  STATEMENT OF RAUL V. SANCHEZ

    Mr. Sanchez. Chairman Michaud, Ranking Member Brown, Member 
Teague, and distinguished Members of the Subcommittee, it is my 
honor to be here today to represent the VFW members in New 
Mexico, here in Las Cruces, and around our wonderful, wonderful 
State.
    I come before you as an advocate for our brave servicemen 
and women and for veterans and their families from all eras. I 
come before you as a reminder that those who go to war return 
home with an obligation to make things better for every ensuing 
generation who follows. This is central to the VFW's core 
value, ``to honor the dead by helping the living.''
    With these thoughts in mind, I would like to address a 
number of issues that we are facing here in New Mexico. All of 
the issues in my statement are of extreme importance to our 
State's veterans: The OEF/OIF health care, women veterans 
health care, traumatic brain injury (TBI), mental health, the 
alarming suicide rate of veterans, veterans homelessness, 
employment, and quality of life issues. The number-one issue, 
though, that's affecting our New Mexico veterans is the VA 
claims backlog and unacceptable waiting times for those seeking 
care.
    VA currently has more than 1.1 million individual claims 
and appeals for compensation, pension, and education benefits. 
Right here in New Mexico's own regional office (RO) of 
Albuquerque, there are 6,240 disability compensation claims and 
appeals pending. Over the past year, this backlog has grown by 
more than 10 percent. Of the nearly 3,400 claims requiring 
rating action, 38 percent are pending over 125 days. Reading 
quality reviews show a whopping 19 percent error rate; and that 
is, one in every 5 cases, VA decides that New Mexico is wrong. 
The evidence shows that the Albuquerque VA regional office 
fails to provide adequate services in all three areas the VA 
measures: workload, timeliness, and quality. This is totally 
unacceptable.
    VFW has made reforming the VA claims processing system a 
top legislative priority. The VFW realizes there's no silver 
bullet to fix the Veterans Benefits Administration (VBA), but 
there are opportunities for steady and deliberate improvement. 
We also know that any single plan to make the overall claims 
process simpler could occur at the expense of the rights and 
benefits earned by veterans, their dependents, and survivors.
    A quick-fix plan is simply unacceptable, because fixing the 
backlog would require thoughtful solutions to avoid harming our 
veterans and exacerbating the problem.
    VBA is a key to everything the VA does, so the VFW will 
continue to offer its expertise to the VA and your Committee, 
so we can solve this backlog problem together. Veterans have 
grown tired of the excuses. They want and deserve action. The 
VFW wants to help.
    The VFW has offered potential solutions in testimony and in 
The Independent Budget, but we cannot wave a magic wand to make 
the problem go away. Our suggestions have included improvements 
to the funding process; increased emphasis on ratings decision 
and accuracy, instead of speed; improvements in staff education 
and training; and increased use of technology.
    Unfortunately, it may be years before VBA will be able to 
reduce the backlog and improve rating timeliness and accuracy. 
We believe, however, that the VA can still make incremental 
improvements to demonstrate to veterans that it is both candid 
in its problems and responsive to their needs.
    Some of the first steps would be to demand a total 
commitment from VA leadership to do every claim properly the 
first time; improve the VA's information technology and 
infrastructure, to include adopting paperless initiatives; 
upgrade and enhance training systems that invest in skills and 
knowledge of VA employees, reducing turnover and improving 
quality; higher accountability. We also ask Congress to 
commission a third-party study of the quality assurance of 
claims processing.
    We envision a VBA of the 21st Century, one in which 
veterans receive accurate and timely decisions. Congress must 
invest in the long-term success of VBA, which only is achieved 
through constant improvement.
    The VFW and other VSOs have a nationwide network of 
excellent service officers, including our own vet, Fred Ortiz, 
but we can only help those who seek us out. For a veteran to 
navigate the bureaucratic process without a service officer to 
guide them, it can be a nightmare, and a number of them simply 
give up, which means they lose their earned benefits, 
disability compensation, and access to VA health care.
    In closing, we ask that your Committee work with the VFW 
and other veterans service organizations to help effect all of 
the health care program provided by the U.S. Department of 
Defense (DoD) and Department of Veterans Affairs under the new 
national health care bill that was signed to law by President 
Obama last Tuesday.
    Thank you.
    [The prepared statement of Mr. Sanchez appears on p. 46.]
    Mr. Michaud. Mr. Garcia.

                  STATEMENT OF JOHN M. GARCIA

    Mr. Garcia. Mr. Chairman, Congressman Teague, Members of 
the Committee, my name is John Garcia. I'm the Cabinet 
Secretary for the New Mexico Department of Veterans' Services. 
I'm also the Past President of the National Association of 
State Directors of Veterans Affairs. On behalf of Governor Bill 
Richardson, 200,000 veterans of the State, of which 30,000 are 
OEF/OIF veterans, and a rich military legacy, I'd like to 
welcome all of you to the State of New Mexico.
    I just recently returned last night from DC, as part of a 
commission appointed by Secretary Shinseki to select the Under 
Secretary for Benefits, and I believe we've selected three 
recommendations we'll be presenting to your committee and the 
President. And there will be a well-qualified individual in 
that position in the future.
    Mr. Chairman, my comments are such--as the State Department 
of Veterans' Services, I want to make sure that you, as the 
Chairman of the Committee and Member of Congress, understand 
the role of State Directors and the office that I represent. 
We're a vital partner with the Federal VA in delivering 
services. We're the second largest provider of services to 
veterans, and our roles continue to grow.
    Collectively, States contribute more than $5 billion each 
year in support of our Nation's veterans and their families, 
even in the face of constrained budgets. Our duties include 
honoring and working with all veterans at the various 
organizations, both within our State and nationally. I applaud 
the cultural change at Federal VA in recognizing the importance 
of the VA partnership and the State Departments of Veterans 
Affairs and a concerned compassionate leadership demonstrated 
by our Secretary Shinseki and his senior leaders.
    The State Departments of Veterans Affairs are governmental 
agencies, and they're not membership organizations. They're 
tasked by our respective governors, boards, and commissions 
with the responsibility to address the needs of our veterans, 
irrespective of age, era of service, military branch, or 
services.
    On a daily basis, State Directors and their staff are 
confronted with unique situations in caring for all veterans, 
which often needs to be addressed in a timely manner. Delivery 
of meaningful services and support many times is best 
orchestrated at local levels, our offices, our veterans service 
officers, and our facilities, along with Federal VA facilities, 
Mike at the country.
    Several of my staff are here, which are veterans service 
officers. I'd just like to take a moment, sir, to introduce 
them to you. J.R. Turner, our veterans service officer from Las 
Cruces, and he can stand. Virginia C. Bell, a veterans service 
officer from Las Cruces; Mr. Reggie Price, out of Silver City; 
Dalton Boyd, who's at the table here, from Hobbs; Tony Woodard, 
out of Alamogordo; and Armando Amador, who's out of Silver 
City, a member of my State advisory board. I mention these 
names to you because they're very engaged with us and our 
delivery of services around the State of New Mexico.
    New Mexico appreciates the efforts of the Administration 
and Congress to improve overall funding of health care, 
homeless veteran programs, community clinics, and claims 
processing. Increases in VA funding, as reflected in the 2010 
and 2011 budget, provides a 20 percent increase over FY 2009. 
The budgeting change for an advanced appropriation of 2012 will 
provide continuity for programming and services.
    We are now serving a new generation of veterans from 8 
years of war who must receive medical care, establishment of 
benefits, and need assistance transitioning to civilian life 
after dedicated service. This funding supported by Congress 
will provide the wherewithal in three major areas.
    First, the overall access to the VA. In essence, the VA 
should be the provider of choice for veterans. Second, reducing 
the backlog of claims processing. And, third, the stated goal 
by Secretary Shinseki of eliminating homelessness among 
veterans and ongoing challenges to meet the critical demand of 
mental health, including PTSD and TBI, which needs continued 
funding and focus. Likewise, there should be an increased 
funding to veterans health care in rural areas and better known 
businesses through the Small Business Administration (SBA).
    New Mexico supports continuing efforts to reach out to our 
veterans, and I firmly believe all veterans, regardless of 
where they reside, should have equal access to Federal and 
State benefits and services, and that Federal and State 
Governments must collaborate to achieve this goal nationally.
    Many areas of the country are still shortchanged due to the 
veterans lack of information, awareness of their benefits. This 
directly impacts their access to the VA services. Federal VA 
and States must work together to reduce this inequity by 
reaching out to veterans regarding their earned benefits, and 
New Mexico supports an implementation of a grant program that 
would allow VA to partner with the States to perform outreach 
at local levels.
    State Directors and myself actively support increasing 
veterans access to the VA health care. This involves being 
engaged with VA Medical Centers on establishing, locating 
additional community-based outpatient clinics, included on 
tribal reservations. With mental health services, expansion of 
Vet Centers, and the creation of veteran wellness centers, we 
applaud the efforts by the VA to address particular issues of 
health care for women veterans and veterans residing in rural 
areas.
    Future health care funding to expand outreach and access 
will have to include telehealth, telehome health, telemedicine; 
and, likewise, we support VA contracting out some specialty 
care to private-sector facilities, where access is difficult. 
VA research and development needs to focus on enhancing long-
term health and well-being of veteran population; particularly, 
the new conditions, such as Gulf War Syndrome, PTSD, and 
effects of TBI.
    And attention must be given to the continued funding 
support at large capital projects identified and recommended by 
the Capital Asset Realignment for Enhanced Services (CARES) 
assessment, while maintaining the Veterans Health 
Administration's (VHA's) infrastructure of 153 hospitals, 951 
CBOCs, and 232 Vet Centers. New Mexico fully agrees the support 
and efforts of VA and DoD is developing the seamless 
integration of electronic health records and recommends further 
integration of electronic records between the VA and State 
Departments of Veterans Affairs.
    New Mexico also recommends an in-depth examination of long-
term care and mental health services, as well as wellness 
treatment centers, to include gap analysis clearly identifying 
where services are lacking, and any studies should include 
consultation with State Directors of Veterans Affairs.
    State veteran homes are a critical component of long-term 
health care for veterans and a model of cost efficient of 
partnerships between the Federal and State. State Homes, over 
half of the national long-term health care workload are infirm 
and aging veteran population. The Federal Government should 
continue to fulfill its important commitment to the States and, 
ultimately, to the individual veterans in need of this care.
    We strongly recommend that the VA review regulations, 
ensure that their implementation of Public Law 109-461, the 
Veterans' Benefit, Health Care, and Information Technology Act, 
does not threaten the future of State veteran homes and their 
continued ability to meet the needs of our veterans.
    We also support full reimbursement of care of State veteran 
homes who have a 70 percent or more service-connected 
disability or who require nursing home care because of service-
connected disability. There are two very important issues to 
implement this reimbursement. First, there needs to be a clear 
definition and understanding for calculation of the full cost 
of care; and, second, the Congressional legislation needs to 
allow States to bill Medicare and Medicaid.
    We also support the recommendation of the Veterans' 
Disability Benefits Commission to streamline the delivery of 
disability benefits by updating the VA rating schedule, 
realigning the DoD and VA process for rating disabilities, and 
developing and implementing new criteria specific to rating 
post-traumatic stress disorder.
    We also applaud the initiative of Secretary of Veterans 
Affairs for establishing a goal to end homelessness among 
veterans and within 5 years, and encouraging the VA to partner 
with State Directors of Veterans Affairs. Programs should 
address the barriers to homeless veterans, medical issues, 
mental and physical, legal issues, limited job skills, and work 
history. We appreciate the increased funding for specialized 
homeless programs, such as the Homeless Providers Grant and the 
Per Diem Health Care for homeless veterans.
    We, in New Mexico, have a unique program, the New Mexico 
Veteran Integrations Center, which I believe could be a model. 
It could be reviewed by the VA and other agencies. It's vital 
to continue the Veterans Affairs partnership with community 
organizations to provide transitional housing, and the VA HUD 
partnership with public housing authorities to provide 
permanent housing for veterans and their families.
    And there should be official coordination between the VA 
program, the office for homeless veterans, and the State 
Department of Veterans Affairs, for grant application and 
awards for organizations, with the respective state, to 
homeless veterans, and this would assist in fiscal 
accountability and local oversight of the services provided.
    New Mexico also supports efforts to diminish the national 
disgrace of homelessness among veterans. We applaud the 
permanent authority of the Homeless Providers Grant and Per 
Diem Program and propose authorization to increase annual 
spending to $130 million. State Directors of Veterans Affairs 
would prefer a Per Diem fund for homeless veterans pass through 
the State to nonprofit organizations to ensure greater 
coordination.
    Mr. Chairman, distinguished Members of the Committee, I 
respect the important work that you are doing to improve and 
support veterans who answered the call and service to our 
country. As a representative of the State Directors of Veterans 
Affairs and as Secretary of Veterans Affairs for my State, I'm 
dedicated to doing our part, but I also urge you to be mindful 
of the increasing financial challenge that States face, just as 
you addressed the fiscal challenges at the Federal level. I'd 
like to also emphasize again that the State Directors of 
Veterans Affairs, with the VA, in the delivery of services and 
care to our Nation's patriots.
    Mr. Chairman, Members of the Committee, this concludes my 
statement. I'll be glad to provide you a copy of this statement 
and answer any questions that you may have.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Garcia appears on p. 50.]
    Mr. Michaud. Thank you very much, Mr. Garcia, and other the 
three panelists.
    My first question is for Ms. Angell. As part of VA's 5-year 
plan to end veterans homelessness, the VA also plans to 
implement a national referral call center and a national 
homeless register. What are your thoughts on these new 
initiatives, and what other new initiatives do you think VA 
should include on their list? You mentioned the concept of 
housing first. What other new initiatives, such as that 
concept, do you think the VA should look at as it tries to 
address homelessness?
    Ms. Angell. Well, I think that using nonprofits, us and 
community-based centers, as a tool for veterans is good. I 
think a lot of--and, again, speaking just the chronically 
homeless, a lot of them are very disenfranchised. Some of them 
don't even admit they're veterans. They have spoken to some of 
the local agencies, and they have, like, this--I don't know. 
They don't have a great view of the VA. And that's that small 
group. I mean, I'm talking very specifically to the chronically 
homeless.
    But I also think that housing, if you go for permanent 
housing, the Grant Per Diem Program, it's great, but it's 
transitional, so it's 2 years limited. So you get into this 
program, and then you have to move into permanent housing. But 
if we can go straight from the streets to permanent housing--
that's why Housing First is important. It takes people and puts 
them into permanent housing right away, and then delivers 
services that people want.
    So I think, with emergency and transitional housing, it's 
temporary, and it's so much easier to fall out of the cracks--
fall into the cracks there. If we can get people straight into 
permanent housing, then they can move on to other permanent 
housing.
    And that's what we're seeing in our permanent housing 
development. We put people in group homes, where we're taking 
people off the streets and into these group homes, where they 
can live forever. And a good portion of them have moved out 
into other permanent situations. But during that time, they 
don't feel threatened, like they have a limit of time.
    But during the time that they move in there, a lot of them 
are getting benefits and on Social Security and getting 
physical care. A lot of them are getting to doctors for the 
first time in decades. And so that kind of program, I think, is 
really good, in addition to the emergency and transitional 
housing. But those are mandates--permanent housing is the--you 
know, permanent.
    Mr. Michaud. Thank you.
    Mr. Boyd, to help expand access to health care among our 
rural veterans population, you recommend making the fee-based 
care more readily accessible. I think that's important, 
particularly for rural States. However, there has been some 
concern among some of the VSOs about ensuring the continuity of 
care among our veterans with fee-based care, as well as concern 
that they might be pushing farther away from the VA out to 
contract care.
    Do you share those same concerns about continuity of care 
and quality of care and----
    Mr. Boyd. To a----
    Mr. Michaud [continuing]. Loss of VA's control?
    Mr. Boyd [continuing]. To a degree, yes, I do. However, you 
know, with continuity of care, a lot of times, the veterans 
that are in the rural areas like this, they'll travel their 640 
miles to Albuquerque from Hobbs, and they'll receive their 
treatment. Three months later, when they go back, oftentimes, 
it's not the same physician that's attending to them. And so 
the continuity of care--it may be the same facility, but quite 
often, it's not the same physicians. I understand the 
oversight, but the VA needs to follow through on that.
    Mr. Michaud. I've heard concerns from veterans service 
organizations in Maine. For instance, the distribution of 
funding for rural health care, through the Veterans Equitable 
Resource Allocation (VERA) model places a lot of pressure on 
CBOCs and hospitals in rural areas that are part of the 
Veterans Integrated Services Network (VISN), but not directly 
in that region.
    Are you concerned, or have you heard complaints about how 
the funding gets distributed from the VISN office out to rural 
CBOCs or other areas? In some cases, I've heard they're 
actually looking at cutting back on fee-basis service, because 
they've got to make their budget balance.
    Mr. Boyd. And I don't see a problem with that at all. As a 
matter of fact, I'm on the veterans council with the Big Spring 
hospital, the VA hospital, and, actually, funding has increased 
for our CBOCs, as well in Hobbs. That's not an issue.
    We have expanded. They're attracting a larger number of 
veterans. They do an outstanding job at our CBOC. The problem 
is, they're restricted and limited in their care that they can 
provide to a veteran, and my concern has always been with those 
veterans, for example, the World War II veterans, that a lot of 
times, they're just not physically able to travel those long 
distances. That's my concern.
    Mr. Michaud. Mr. Sanchez, we've heard a lot about the VA 
working collaboratively with the State veterans service 
coordinators in certain States. Do you feel that the VA has 
worked collaboratively with the VSOs in this region? For 
instance, have you looked at whether they're looking at 
building a new CBOC or how they're going to deliver services in 
rural areas? How is the VA working with the VSOs in this area 
of the country?
    Mr. Sanchez. You know, that's a very good question, 
Chairman. Our State--that's why I brought my State service 
officer today and my District 3 service officer today. And if I 
can, with your permission, defer this question to him, since he 
is more in day in and day out.
    Mr. Michaud. Yes. That'll be no problem. If you'd state 
your name for the record.
    Mr. Ortiz. Fred Ortiz, Department Service Officer for the 
VFW.
    Mr. Chairman, it's quite evident that there is a problem 
here, and I completely concur with Mr. Boyd, that sometimes the 
VA, as you put it--you've referred to the Medical Center; is 
that correct?
    Mr. Michaud. Yes, CBOC centers and----
    Mr. Ortiz. Okay. The Medical Center sometimes does not 
treat the very ill people that travel a long distance with the 
same doctor every time they come by, and that does create a 
problem. As a matter of fact, a lot of times, they wind up 
having some problems with housing. They travel 300 to 325 miles 
from home to go to the Medical Center. They want to have some 
place to stay, and a lot of them can't afford it.
    They do have some small quarters at the Medical Center now, 
but it's just simply not enough. It would be nice if the 
Medical Center had a little bit more money to probably to 
expand the housing that they presently have, which I believe 
it's like 20--24, I think. Twenty-four people is all it'll 
house.
    Mr. Michaud. Do you feel the VA works with the veterans 
service organizations or----
    Mr. Ortiz. No, sir. We don't work with the Medical Centers 
quite--all that much, but we do try to get some information 
from them. If we can't get the person that has the information; 
therefore, we have to go to a second or third party, and we 
wind up getting a lot of information that is not correct, when 
it comes to accomplishing some task that is important to the 
veteran.
    I myself and my office have received probably in the 
neighborhood of 15 or 20 major complaints, and I forward them 
to the public affairs person there at the Medical Center.
    Mr. Michaud. Thank you very much.
    Mr. Ortiz. Yes, sir.
    Mr. Michaud. Mr. Garcia, you brought up an issue concerning 
State Veterans Nursing Homes, and the Subcommittee had a 
hearing 2 or 3 weeks ago on that very issue. Congress passed 
legislation, then when VA ultimately adopted rules and 
regulations, defining what they considered to be the full cost 
of nursing home care. The VA regulations are troubling to a lot 
of the Veterans Nursing Homes around the country.
    During that hearing, we heard some testimony that was very 
disturbing. For instance, in Maine, we have six State Veterans 
Nursing Homes. If the rules were to be implemented, the State 
Nursing Home Director said they would lose anywhere from $8 to 
$16 million a year. They would be forced to stop taking 
veterans in the State Veterans Nursing Homes because of that 
law.
    We heard from the State Veterans Nursing Home Director in 
Nevada that a wife of a veteran who was 100-percent disabled 
was not able to get her husband into the State Veterans Nursing 
Home because of the way the rules were being implemented. And 
even though the wife kept calling every week, ultimately the 
veteran passed away before he got into the facility.
    We also heard from another State Veterans Nursing Home 
that, what it's going to force them to do is avoid taking care 
of the most severely disabled veterans because it costs more to 
take care of 100-percent disabled veterans, because of the 
chronic illnesses that they have. Instead, they're looking at 
taking the 70-percent disabled, the less severely wounded 
veterans, because of the rate of reimbursement and the issues 
with Medicare and Medicaid.
    What have been some of the stories that you've heard from 
State Veterans Nursing Homes here in New Mexico, as far as what 
they might do and how they're going to treat the veterans in 
light of this?
    Mr. Garcia. Well, Mr. Chairman, Congressman Teague, one of 
the issues that we have in New Mexico--and I think it's 
replicated across the country, and you hit on a couple there--
is that we're an aging population. Vietnam vets are in their 
mid-60s, World War II guys are in their 90s, and Korean 
veterans are in their--age 75. And on one hand, as the aging 
vet population in my State--we have one veteran home, the T or 
C Vet Home. It does an outstanding job. They have 110 beds 
available for my vets. There are 5,000 beds available statewide 
that are not tied into the Veterans Home. Your State has four 
or five veterans homes.
    And as a population begins to age, there's a need for more 
beds. We're running into a lot of issues that you just 
articulated. We're no different than other States. We had a 
medal of honor recipient, Korea, suffering from Alzheimer's; 
yet, we only had 12 beds available in the state, and we had to 
get him accommodations up in the State of Colorado.
    I think the State Veterans Homes need more funding. We need 
more ways to help fund these State Veteran Homes, as the 
veteran population ages. We are currently working with our 
department and Agency on Aging, performing collaborative--see 
what other ways we can treat aging veterans and their needs.
    You know, aside from the Veterans Homes, is that we're a 
huge rural State, and I have veterans who live in Clayton, New 
Mexico, or Farmington, have to drive 4 hours to come to the VA 
Medical Center, which is a very fine Medical Center. Though 
there are 200,000 vets in my State, VISN 18 is responsible for 
135,000 veterans.
    And so transportation and needs for my aging veterans and 
accommodations--I know the VA is looking at home care, day care 
for aging vets, but I think it's a matter of Medicare or 
Medicaid helping to cover the costs of this and trying to come 
up with other means that could take care of an aging veteran 
population.
    And on one hand, then I've got this young veteran 
population. So we have some real unique challenges that we're 
facing, an aging veteran population, with the young veteran 
population that's a mirror image of the Vietnam generation. 
They're just not showing up. So we're looking at ways to expand 
our Veterans Home and provide rural service, rural care to 
aging vets.
    I think you articulated some of the answers that I think 
we're looking for. We're all finding problems with long-term 
care for veterans, and we need to find ways to trim that cost 
for our veteran homes.
    Mr. Michaud. Thank you.
    Mr. Teague.
    Mr. Teague. Thank you, Mr. Chairman.
    Ms. Angell, thank you for coming here today. I also want to 
thank you for the assistance and insight that you've been 
providing my office in regards to the homeless veterans that 
were camping on the outskirts of Las Cruces. You and Guy 
McCommon, as well as others, have been doing a tremendous job 
of getting those folks the assistance they need, and I want to 
personally thank you for that.
    You mentioned in your statement that we need to take a look 
at the concept of Housing First. Could you tell us a little bit 
more about that and how that program works and how would we 
maintain the facilities, I mean, because what we do, once we 
get all of the men and women that we can off the streets, we 
want to address the issues that's keeping them homeless.
    Ms. Angell. Yes. Well, Housing First, I think the way that 
it works is--what we've done with our own program--and this 
would be one that would be designed just for veterans, kind of 
like the Per Diem Program.
    And what we did with ours is, we had the people who were 
actually going to live there help design the program. We could 
do it where you--it could either be scattered-site apartments, 
where basically, what the veterans need to do is, they need to 
comply with a lease. So all the initial efforts are to work 
with them on making sure that they maintain the lease, and that 
those are where the rules basically are. And then the other 
supportive services are offered to them.
    But a lot of the services are client driven, you know. 
They're offered. They're not mandated. A lot of it is getting 
them involved in activities, even taking them to plays or going 
to the movies or getting them into the community and 
reintegrating into the community.
    I think what we see, for instance, with the gentlemen that 
are living along the river and along the highway, the river, 
that are going to be forced out in a couple of weeks here, is 
that they're not--they don't feel a part of their own 
community, you know. They have, you know, their house. They 
don't feel part of the greater community. So Housing First 
helps gets them into our community and to feel like one among 
us, instead of separate.
    Mr. Teague. And that's the other question that I was going 
to ask you, because in the case of a lot of the homeless 
veterans that would camp, that we found out here, several of 
those veterans, they seem to not have substance abuse problems, 
and they do have job skills, where they could do--but they 
simply do not want to go to a shelter or transitional facility. 
Do you have any suggestions on how we reach them?
    Ms. Angell. We've been working with a few of them, and one 
of them gave me--I quoted it in my paper, but I didn't bring it 
up here. And, basically, you know, he and his girlfriend of 15 
years--he's honorably discharged from the Army many years ago. 
He's probably not much past 50, I don't believe.
    But they just want freedom, and they want the freedom to be 
able to, you know, make their own choices in life and maybe be 
given--you know, he doesn't like getting up in the--you know, 
when it's 20 degrees out, you know, he doesn't like frying in 
the sun, but they want freedom, and there's so many 
restrictions.
    I think a lot of people who are chronically homeless, 
they've paid their dues in rules, you know, and they don't--
they're just kind of an independent lot that don't want to 
prescribe to the same rules that you and I do. So we are--they 
want--we are giving them ideas of how we can get them into 
housing that would be free.
    And that particular couple is going to move on. They've 
said, you know, ``We don't want any troubles. We're just going 
move on to the next place.'' I think they just don't believe 
that they'll ever find housing without all the restrictions.
    So it is a tough--you know, I think we're dealing with some 
of the most difficult people in our society to deal with, is 
chronically homeless people, because even, you know, our 
immigration population, a lot of them see hope and want to 
help--want hope. They've come here for the American dream. 
These other folks have lost the American dream, you know. 
They've lived it and lost it.
    So it's pretty much helping them, having them help create 
and starting from the ground up with them. And we're working on 
this program. You know, we have a housing CARES program. 
They're live over by Apodaca Park, and we're kind of learning 
as we go.
    But there are a lot of programs in the Nation. It's just 
one thing a lot of our housing doesn't consider is the need for 
operating and administrative costs, because if I'm looking into 
these great programs here, I'm not writing grants to keep our 
doors open and other things, too.
    Mr. Teague. Right.
    Ms. Angell. And that's where HUD falls short, pretty much, 
in fully funding the housing programs for homeless people. They 
forget about the administrative and the operating costs that 
you need to go along with it, so----
    Mr. Teague. Okay. Dalton, thank you again for coming over 
here, but I know that in your line of work, you end up dealing 
with a lot of issues that are related to the fee-based system. 
Mostly, you probably hear about it after the fact, when a 
veteran goes to a provider outside of the network. Do you think 
there's more that we can do in explaining how the process works 
to our veterans, or is an instance where that the system needs 
to be streamlined?
    Mr. Boyd. We need to do a better job of explaining the 
program to our veterans, particularly with emergency care. 
Veterans aren't familiar with the requirements needed for 
emergency care costs through fee basis. As veterans service 
officers, we provide the veterans with that information; but, 
oftentimes, it's after the fact. They need to know prior to an 
emergency. They need to be educated on these issues relating to 
fee basis.
    Fee basis, if emergency health care procedures are followed 
properly, are taken care of in a timely manner by the VA, 
generally, within 90 days. However, if they're not followed 
properly, there's going to be some serious issues, and veterans 
need to understand those procedures. It's our job to let them 
know that.
    Mr. Teague. And, you know, a lot of them, maybe it's hard 
to get that information to them because they've had a bad 
experience, of course. But how many cases do you deal with 
where a veteran finds himself in some sort of a financial bind 
or issue due to the fact that they missed this step in the fee 
basis system?
    Mr. Boyd. I have 4 or 5 a year, probably, in the Lea County 
area. And the Big Spring VA hospital is really good to work 
with, okay, and wherever possible, they will work with us in 
resolving the problem.
    Also needed is an education program to the emergency health 
care centers throughout the United States, not just the 
veterans hospitals, but, also, the public health care. And the 
hospital in Big Springs is actually taking--taking charge of 
that and going to the different hospitals and explaining the 
program and have had some good benefits and good rewards.
    Mr. Teague. And I think that's good. I think it's going to 
be a lot easier to explain it to the hospitals than it is to 
track down all the groups----
    Mr. Boyd. Thank God.
    Mr. Teague [continuing]. And explain it to them.
    Are there any groups or local government agencies that the 
VA can look to to partner with in working to assist the 
homeless veterans? I mean, like here, the Community of Hope 
works with the Las Cruces Housing Administration. Are there 
some more things like that available that you see around in 
your work?
    Mr. Boyd. I utilize Manna Outreach in Hobbs. Adult 
Protective Services is always real good to work with. The best 
luck that I have is through--again, through the Big Springs 
hospital, through a substance abuse program. Most of the 
homeless people I see have substance abuse programs. If we want 
to really solve their homeless problems, we need to solve their 
substance abuse problems. We can do it both ways. We can cover 
both of those bases through this program in Big Springs. I've 
had several veterans that I've introduced to that program and 
each time, it's been a success story.
    Mr. Teague. How close is the closest Vet Center to your 
location there in Hobbs?
    Mr. Boyd. Midland, Texas, serves the Hobbs/Lea County area.
    Mr. Teague. How many vets in the Hobbs/Lea County area do 
you think utilize the Vet Center?
    Mr. Boyd. Right now, about 15. And we have some from 
Carlsbad area that come over to utilize their services.
    Mr. Teague. Okay.
    Mr. Boyd. Much more, I believe, would benefit from 
utilizing the Vet Centers.
    Mr. Teague. If we had one locally there?
    Mr. Boyd. If we had one permanently, yeah. Absolutely.
    Mr. Teague. Thank you. Thank you. Thank you again for 
coming over and----
    Commander Sanchez, welcome, and thank you for your 
testimony today. Do you think that we're doing good enough jobs 
of letting our veterans know about the telehealth service, so 
that they can utilize it?
    Mr. Sanchez. Congressman, there's always room for 
improvement, you know. And--but, yes, I think you are right 
now, but, you know, our veterans still need, you know, more 
access to information technology, and all that. And I know that 
can--New Mexico is such a rural State, you know. It's--news is 
hard to come around. And Albuquerque being the only VA 
hospital, that also creates a problem for the southernmost 
part, vets, you know. They either go to Albuquerque or Fort 
Bliss----
    Mr. Teague. Beaumont.
    Mr. Sanchez. Yes, or Holloman.
    Mr. Teague. Yeah, it's unfortunate. Some of the things that 
we love so much about our State, the wide open spaces, is a 
problem sometimes.
    Mr. Sanchez. Yes, it is.
    Mr. Teague. Do you know of other things that maybe the VA 
could do to work with the VFW to help the homeless veterans in 
New Mexico? Do you have any other ideas on those?
    Mr. Sanchez. I think you covered--or Mr. Boyd covered most 
of them, you know. It's----
    Mr. Teague. Our panel has done a good job.
    Mr. Sanchez. Yes, they have. Yes, they have. I know that 
what Mr. Boyd said about substance abuse, yes, it hits home.
    Mr. Teague. Thank you. Thanks for----
    Mr. Sanchez. Thank you.
    Mr. TEAGUE [continuing]. Coming today.
    Mr. Sanchez. I thank the panel.
    Mr. Teague. Mr. Secretary, I also thank you for taking the 
time out to come and join us here today. I appreciate you 
coming down. As you know, there are grants available to the 
States to build retirement homes for veterans. Currently, there 
is only--we only have the one facility here in the State. But 
do you think the utilization of these grants is something that 
New Mexico residents--something that we could do or----
    Mr. Sanchez. Mr. Chairman, Congressman Teague, most 
definitely. You know, you mentioned--and I answer in two parts. 
You mentioned, for example, telehealth. We have formed a health 
collaborative in the State with working with public, private, 
Federal agencies, the State agencies, and created a health 
collaborative, partnering with Presbyterian Medical Services. 
Part of the target is to address rural outreach, implementing 
telehealth. We're a huge State, and it's a task of getting out 
to the rural parts of the community to make the veterans aware 
of what we've got. Telehealth, I think, is the way of the 
future. We need to bring 21st Century technology into our State 
to deal with our veterans.
    Regarding another facility, it's definitely needed. The VA 
has a formula based on number of veterans in our State. We have 
200,000 vets, as an example. We're entitled to at least 220 
beds. We're only utilizing 110 beds right now at T or C vet 
home. So you could put another--a clinic or a facility in your 
district of 50 beds or 100 more beds, and the VA would give us 
65 percent funding for design-build-to-construct, if the State 
comes up with the other 35 percent.
    And so any types of grants that are out there, my office 
would be delighted to work with you on that. And, again, I just 
want to emphasize to the Chairman and--and to you, Congressman, 
as I have to the other Congressional delegation, I honestly 
believe the State Departments of Veterans Affairs are being 
underutilized. We're the point man. We work closely with the 
veterans service organizations. I have quarterly meetings with 
the State commanders, the VFW, American Legion, Disabled 
American Veterans, the VA regional office, the VA Medical 
Center, and that way, we're all on the same sheet of music.
    I think we're unique in New Mexico because we have a very 
strong team effort, but we have a lot of challenges, and one of 
those challenges, I think, is adequate funding. Again, as I 
mentioned in my testimony, the State's contributed about $5 
billion of their own money, State money, to do outreach for 
vets; but, yet, there's a disconnect between the VA and the 
States, and there's a greater disconnect, as you're aware, 
between DoD and the VA. And so, somehow, we need to bring those 
three players together to implement the outreach and necessary 
services to my veterans.
    So, yeah, I think grants and more funding we definitely 
have to go after. I mean, if we can--you have the Fort Baird 
facility, beautiful facility. Stimulus funding could be secured 
to expand and continue using that beautiful facility out there, 
or even any part of your district, to take care of southern New 
Mexico.
    You know, we have at least a little over 30,000 veterans in 
southern New Mexico; but, yet, we take veterans in from the El 
Paso district, west Texas area, Arizona. So we have some great 
challenges, but I think there are solutions to those 
challenges, and part of that is grant and additional funding 
for rural States. There needs to be more opportunities for 
rural States.
    Mr. Chairman, if I may just take one more opportunity, an 
example of that, where I think there's some prejudicial ruling 
that exists--and I'll just use cemeteries, for example. We have 
a national cemetery in our State which is in Santa Fe. There 
are 30,000-plus burials there. But there's a current ruling 
that says you must have 175,000 veterans in a 75-mile radius. 
Well, hell--excuse me--we'll never qualify for that ruling, so 
we have to stick to State-funded programs.
    And State-funded programs mean the State has to commit for 
perpetuity, for maintaining and operating the facility. So it's 
a prejudicial ruling towards western States. It forces us into 
State-funded programs, which are great programs, but that 
ruling needs to be changed, you know. It should be--take out 
the 75-mile rule and just say 175,000 veterans.
    And so I point that out because, honestly, I believe that 
rural States, there's prejudicial rulings, and sometimes, 
because of lack of large population base, we're ignored, in 
terms of grants and/or funding opportunities, and so we have to 
work very aggressively with you and our Congressmen to ensure 
that those funds come in.
    And, again, I just say that I think as Secretary of 
Veterans Affairs, I think my agency, working with our governor, 
working with our Congressional delegation and our State 
legislative body, we can be very effective to assist the VFW, 
American Legion, Military Order of the Purple Heart, through 
grants or contracts that come in through my office, which also 
allows us to become the fiscal agent, to ensure that these 
funds are being spent correctly and the outreach is being done. 
So I--that's a long answer to your question, sir.
    Mr. Teague. Well, but thank you for it.
    And that's all the questions I have.
    Mr. Michaud. Once again, I want to thank all the panelists 
for your testimony here this afternoon. I look forward to 
working with you, as we move forward to try to improve access 
and programs for our veterans, regardless of where they live, 
urban or rural areas. Once again, I want to thank the panelists 
for coming.
    Mr. Garcia. Mr. Chairman of the Committee, I also just want 
to make sure that you're aware that today is National Vietnam 
Veteran Tribute Day. So on behalf of all of the Vietnam 
veterans, they're all being honored and recognized nationally. 
So welcome all my Vietnam veteran brothers.
    Mr. Michaud. I'd like to ask the second panel to come 
forward.
    I'd like to ask Mr. Teague, if you would, to introduce our 
second panel as well.
    Mr. Teague. Yes, I would. I'll start with Ms. Bratton. 
Thank you, and thanks for all that you do for the airmen and 
everybody at Holloman Air Force Base.
    Ms. Bowers, thank you for coming. We just met a little 
while ago, but I appreciate you taking the effort to come this 
far to be with us, and everything.
    Mr. Marnell, George, thank you again for coming down. You 
and Mr. Singleton both have been a regular occurrence. I don't 
know whether we'll have you next month, but we'll have you 
back. Thank you for coming again.
    And, Guy, Mr. McCommon, thank you, and thank you for all 
that you do with everybody in the Vet Center here.
    And, once again, I thank all of y'all for being here today.
    Mr. Michaud. Thank you, Mr. Teague, and we'll start our 
testimony with Ms. Bratton.

    STATEMENTS SHIRLEY BRATTON, DIRECTOR, AIRMAN AND FAMILY 
 READINESS CENTER, HOLLOMAN AIR FORCE BASE, NM, DEPARTMENT OF 
  THE AIR FORCE, U.S. DEPARTMENT OF DEFENSE; SUSAN P. BOWERS, 
   DIRECTOR, VETERANS AFFAIRS SOUTHWEST HEALTH CARE NETWORK, 
  VETERANS HEALTH ADMINISTRATION, U.S. DEPARTMENT OF VETERANS 
AFFAIRS; ACCOMPANIED BY GEORGE MARNELL, DIRECTOR, NEW MEXICO VA 
   HEALTH CARE SYSTEM, VETERANS HEALTH ADMINISTRATION, U.S. 
  DEPARTMENT OF VETERANS AFFAIRS; GRANT SINGLETON, DIRECTOR, 
ALBUQUERQUE VETERANS AFFAIRS REGIONAL OFFICE, VETERANS BENEFITS 
 ADMINISTRATION, U.S. DEPARTMENT OF VETERANS AFFAIRS; AND GUY 
  MCCOMMON, TEAM LEADER, LAS CRUCES VET CENTER, READJUSTMENT 
   COUNSELING SERVICE, VETERANS HEALTH ADMINISTRATION, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

                  STATEMENT OF SHIRLEY BRATTON

    Ms. Bratton. Thank you. Thank you, Chairman Michaud and 
Congressman Teague. My name is Shirley Bratton. I'm 
representing the Airman and Family Readiness Center at Holloman 
Air Force Base, New Mexico, which has the responsibility----
    Mr. Teague. Is the microphone on?
    Ms. Bratton. Which has the--I'll get closer.
    Mr. Teague. All right.
    Ms. Bratton. Which has the responsibility for the 
Transition Assistance Program (TAP) for our supported 
population. Just a little bit about our population. 
Approximately, there are about 13,000 folks that are out there 
at Holloman. Three thousand are military members, 1,000 
civilian employees, 3,000 U.S. dependents, 4,000 retirees and 
their families, about 500 German, and 700 are German 
dependents. We make up--the military related--about 47 percent 
of the Alamogordo population.
    Our mission there, as the 49th Fighter Wing, which is where 
I'm from, is to fly, fight, and win. We are providing combatant 
commanders, combat-ready airmen, mission-ready MQ-1 and MQ-9 
crews, F-22s, and BEAR-based assets anywhere, anytime.
    In particular, the Transition Assistance Program that we 
provide our airmen and our families, what we do out there is, 
we provide consultation services to our commanders and assist 
them in developing and executing policies and programs which 
enhance individual, family, and community readiness. We support 
and maintain the mission readiness by assisting individuals and 
families with adapting to the challenging demands of military 
lifestyle.
    The Holloman Airman and Family Readiness Center is 
responsible for providing services to separating or retiring 
military and civilian personnel and their families 
transitioning from the military into the private sector and/or 
civilian lifestyle/workforce. The focus of TAP is to provide 
the information, skills, and knowledge needed for a successful 
transition.
    To ensure we offer the necessary services and support 
required by Air Force instruction, we provide the following: 
Mandatory preseparation counseling, logistic support for the 
Department of Labor TAP workshop, and other Air Force programs 
and support.
    The mandatory preseparation counseling. We provide 
mandatory preseparation counseling and supplemental 
preseparation counsel for regular Air Force members who are 
retiring, regular Air Force members who are separating for 
disability, regular Air Force members separating after serving 
at least 180 days of continuous active duty, and Reserve and 
National Guard members who are released from active duty after 
180 days of mobilization.
    Military members are required to attend an individual 
preseparation counseling session or small group presentation 
within no less than 90 days prior to separation and retirement. 
In addition, Public Law 107-103, Veterans Education and 
Benefits Expansion Act of 2001, authorize retirees and 
separatees to participate in transition activities as early as 
24 months for retirees and 12 months for separatees.
    Preseparation counsel includes information and referral, 
career change information, employment assistance, Federal 
employment, education and training, relocation assistance, 
health and life insurance, and reserve affiliation. 
Additionally, we assist the members with development of an 
individual transition plan, as requested. As required, we 
document all preseparation counseling on appropriate forms. At 
Holloman, in 2009, 225 members received preseparation 
counseling, while 406 received services in 2008.
    The actual workshop, the TAP workshop, is a coordinated 
effort with the State Department of Labor offices in New 
Mexico, the local career center, the Veterans Administration, 
Veterans Service Office, and the Holloman Airman and Family 
Readiness Center.
    All of these offices meet on a quarterly basis to look at 
local and national employment trends, review classroom 
presentation and critiques from the past quarter's seminars. If 
changes are needed to be made, it is a group effort. The close 
relationship between TAP workshop presenters and the Airman and 
Family Readiness Center ensures a comprehensive, quality 
workshop.
    The Airman and Family Readiness Center provides logistics 
support for the TAP workshop. The center provides classroom 
facilities, notification, registration, and ongoing publicity. 
Typically, our workshops have about 30 to 50 participants. 
Spouses are highly encouraged to attend. Some of the topics 
covered are strategies for effective job search, interviewing, 
employment resume, self-assessment, and dress for success.
    Currently, we are operating a High Year of Tenure seminar, 
which was added for our enlisted members affected by the recent 
changes in policy. During this seminar, attendees receive 
information on the guidelines affecting their separation, 
resources available to them, educational opportunities, 
financial planning, information, and relocation assistance. 
Additionally, we have worked with our officers and enlisted 
personnel who have been affected by force shaping.
    In Alamogordo, we have collaborated with General Atomics 
Aeronautical Systems, Lear Siegler, National Enrichment 
Facility, and other local businesses to host job fairs. We 
collaborated with the Small Business Administration to host the 
``Start Your Own Business'' workshop, and we work with many 
educational institutions to help our folks with that.
    The DTAP, the disability portion, is where we develop--this 
was developed specifically for servicemembers who were 
separating/retiring with medical disabilities. At Holloman, the 
briefings are open to anyone planning to file a claim. The 
program provides members with specialized information and 
application procedures about the VA vocational rehabilitation 
program. TAP explains the process on obtaining the individual 
counseling on handling a disabling situation. Presenters from 
the Department of Labor and VA provide briefings. We conduct 
this once a month. In 2009, 300 folks attended those briefings.
    The next program that we have is the Air Force Wounded 
Warrior. We provide individual, personalized support for our 
Air Force wounded warriors. These airmen are our top priority. 
The previously mentioned services, we take care of those folks 
with those. In addition, we support their families with more 
financial counseling, relocation services, education services, 
employment assistance. Additionally, our Air Force Personnel 
Center Air Force Wounded Warrior program staff provides follow-
up services for no less than 5 years after those folks have 
been separated or retired.
    The general feedback that we receive from our workshops is, 
it's an excellent workshop. It's a lot of information. Small 
business briefing for--Small Business Administration, really 
enjoy.
    During the counseling, our folks say, hey, it's a lot of 
great information. There's a lot of work that needs to be done 
before you retire, and it's a lot of work for their family and 
themselves.
    Our workshops that we provide in support of those, along 
with those traditional ones, we do things such as resume 
writing, house buying, plan my move, stress management. Of 
course, it's very stressful separating from the military after 
several years. Our workshops are evaluated annually, and they 
continue to receive outstanding support.
    And then our first-term airmen that are separating from the 
military possibly, we do something called ``Informed 
Decision,'' to give them a look at the pros and cons of whether 
they definitely want to separate.
    And, again, Team Holloman is proud to provide programs, 
services, and support to our transitioning military members and 
their families. Thank you.
    Mr. Michaud. Thank you very much.
    [The prepared statement of Ms. Bratton appears on p. 53.]
    Mr. Michaud. Ms. Bowers.

                  STATEMENT OF SUSAN P. BOWERS

    Ms. Bowers. Mr. Chairman, Congressman Teague, and Members 
of the Subcommittee, thank you for the invitation to allow me 
to present to you today how the Department of Veterans Affairs 
is making health care more accessible to veterans in New 
Mexico. I am accompanied today by George Marnell, the Director 
of the New Mexico VA Health Care System, and I appreciate the 
opportunity to be able to discuss our ongoing efforts to ensure 
veterans receive timely access to high-quality care, benefits, 
and services that we can provide.
    New Mexico VA Health Care System is a proud member of this 
VA Southwest Health Care Network, Veterans Integrated Service 
Network 18, centered in Mesa, Arizona. My testimony will 
provide an overview of the New Mexico VA Health Care System and 
other services in New Mexico and explain programs and 
strategies to meet the challenges associated with providing 
quality care to veterans across a vast geographic area of New 
Mexico.
    The New Mexico VA Health Care System serves veterans in New 
Mexico through VA-staffed community-based outpatient clinics in 
Artesia, Farmington, Gallup, Raton, Santa Fe, and Silver City, 
and through contracted CBOCs in Alamogordo, Durango, Espanola, 
Las Vegas, and Truth or Consequences. The main campus of the 
New Mexico VA Health Care System is the Raymond G. Murphy VA 
Health Care Center in Albuquerque. It is a tertiary care 
referral system for veterans receiving care throughout New 
Mexico, including those seen in the Clovis CBOC, which is 
managed by the Amarillo VA Medical Center; the Hobbs CBOC, 
managed by the West Texas VA Health Care System; and the Las 
Cruces CBOC, managed by the El Paso VA Health Care System.
    There are 14 CBOCs within the State of New Mexico. Nine of 
them are VA staffed and five through contracted services. New 
Mexico VA Health Care System is actively deploying approaches 
to enhance care for veterans who do not reside near the 
Albuquerque facility. Enhancements in quality have been made to 
CBOCs and rural health programs throughout New Mexico.
    For example, the New Mexico VA Health Care System has 
significantly enhanced quality of care in all of the CBOCs, as 
measured by numerous clinical care performance measures. We 
accomplished this through careful coordination of several 
initiatives throughout the ambulatory care setting.
    Our facilities now meet more than 85 percent of targeted 
performance metrics, compared to just 14 percent in fiscal year 
2008. The significant turnaround was highlighted during a VA 
regional conference on system redesign in October of 2009.
    New Mexico VA Health Care System has installed state-of-
the-art telemedicine equipment in all six of the VA-staffed 
clinics, as well as the Durango contracted CBOC. Currently, 
telemental health services are available, and we have secured 
equipment and staff to reduce the need for veterans to travel 
long distances to the Albuquerque VA Medical Center. The 
Alamogordo contract CBOC is very close to installing and 
activating equipment to provide telemental health services.
    We are continuing, also, to provide for teledermatology 
through a program that is being developed where we are 
purchasing cameras and lighting equipment for all 11 CBOCs. 
CBOC staff will use this equipment to take photographs of skin 
conditions and send these images to the dermatologist at the 
Albuquerque VA Medical Center. The dermatologist will review 
the photographs and make a medical determination for a 
treatment plan with the primary care provider in the rural 
location.
    New Mexico VA Health Care System has installed and is using 
teleretinal cameras for retinal eye exams of diabetic patients 
in five of its six CBOCs to eliminate the need to travel to 
Albuquerque for these exams. VA is leasing additional space at 
the Santa Fe CBOC to allow teleretinal services to begin in 
April of 2010.
    New Mexico VA Health Care System has greatly expanded the 
number of veterans receiving care coordinated home telehealth, 
called ``CCHT,'' which provides devices veterans can use in 
their home to communicate with dedicated nursing and physician 
staff at the Albuquerque VA Medical Center. This program grew 
24 percent during fiscal year 2009 with New Mexico, ending its 
yearly average daily census, every day, of having 177 patients 
in that program.
    Additionally, through the national VHA rural health 
initiative, the New Mexico VA Medical Center has secured a 
total of $3.8 million to further fund expansion in the 
telehealth program to 500 additional veterans. Then 
telemedicine coordination with Albuquerque will also be 
expanded. These services will also include pre and postsurgical 
care, education, and follow-up for veterans.
    High-resolution telemedicine units for surgical 
specialities consultative purposes have been purchased for 11 
CBOCs operated in New Mexico. The telemedicine units are called 
total examination cameras and are capable of examining ears, 
skin, mouth, feet, and surgical sites for postoperative 
evaluation.
    Based on the 2009 Community Homelessness Assessment, Local 
Education and Networking Groups, called ``CHALENG survey,'' 
there were approximately 460 homeless veterans serviced in the 
area of--for Albuquerque and an additional 200 veterans, 
homeless veterans, in the El Paso region on any given night, 
many of whom are not in our urban areas and many that are 
located in urban areas.
    New Mexico works with the community providers across the 
State to address veterans homelessness issues. VA supports 80 
beds for homelessness through a Grant and Per Diem Program and 
another 40 beds through Domiciliary Residential Rehabilitation 
Treatment Program. There are 105 Housing and Urban Development/
VA supportive housing vouchers available to homeless veterans 
in New Mexico.
    The New Mexico VA Health Care System Women's Veterans' 
Program offers comprehensive primary care, gynecology, cancer 
screening, and preventive care, while also collaborating with 
behavioral health programs to offer counseling. The New Mexico 
VA Health Care System mammography program is certified by the 
Mammography Quality Standards Act and accredited by the 
American College of Radiology. The New Mexico VA Health Care 
Systems Women's Comprehensive Care Clinic has provided 
assistance to several homeless women veterans and provided 
referral or treatment as necessary.
    Of the 16,000 women veterans in New Mexico, over 3,500 are 
enrolled for VA care and almost 3,000 are active users. The New 
Mexico VA Health Care System is located near the Kirtland Air 
Force Base, and many women veterans return and settle in the 
Albuquerque region after deployment. VA has seen a six percent 
increase in the number of women veterans over the last year, 
and it expects to serve more than 5,750 veterans by the year 
2014.
    VA is also making improvements for veterans who need to 
travel long distances for specialized care in Albuquerque. 
Congress provided funding to raise the mileage reimbursement 
rate from 11 cents a mile to 41.5 cents a mile, to help defray 
costs for veterans who are eligible for beneficiary travel. In 
2009, the New Mexico VA Health Care System opened an eight-
bedroom, 16-bed, on-campus housing facility, with private rooms 
and bath, called Heroes Hall.
    We recently finished construction on phase two of this 
initiative, opening four additional rooms for occupancy. We 
expect to fully activate this facility by May 2010. It will 
double the current capacity by--and be sufficient to 
accommodate increased demand. This temporary lodging is 
furnished at no charge, through the New Mexico VA Health Care 
System, when veterans are traveling more than 120 miles one way 
to the Medical Center to receive care or compensation and 
pension examination. Veterans are often accompanied by an adult 
care provider or a significant other, who can also stay the 
night on the hospital grounds just before or after their 
appointments.
    VISN 18 and the New Mexico VA Health Care System 
continuously strive to improve access to veterans in rural 
areas through strategic planning initiatives that identify 
outreach and rural health opportunities. We appreciate this 
opportunity to meet with you here and to allow you to hear your 
thoughts--to allow us to hear your thoughts and the opinions of 
other witnesses today.
    Mr. Chairman, this concludes my statement, and I'm pleased 
to answer any questions you might have.
    Mr. Michaud. Thank you very much for your testimony.
    [The prepared statement of Ms. Bowers appears on p. 56.]
    Mr. Michaud. Mr. Singleton.

                  STATEMENT OF GRANT SINGLETON

    Mr. Singleton. My name is Grant Singleton. I'm the director 
for the Albuquerque Regional Office.
    I appreciate very much, Chairman Michaud and Congressman 
Teague, for inviting me here to share with you what our 
regional office is doing, in terms of providing outreach to 
veterans.
    The Albuquerque Regional Office administers benefits, 
disability compensation and pension, for veterans and 
dependents. We also have occasional rehabilitation employment 
assistive services for them, and our goal is to deliver 
comprehensive and diverse nonmedical benefits and services in a 
timely, accurate, and professional manner.
    We provide outreach briefings; Transition Assistance 
Program and Disabled Transition Assistance Program briefings at 
each of the three Air Force bases in New Mexico. These 
briefings do provide comprehensive nonmedical benefits and 
service information to servicemembers who will soon be released 
from active duty.
    During this past fiscal year, the RO provided approximately 
60 briefings to almost 2,000 attendees. For this fiscal year, 
so far, we've conducted 30 briefings to almost 750 attendees. 
We're working hard to reach our Native American veterans. We 
know that many of them live in rural areas, and it's difficult, 
at times, to reach them all. There's a number of different 
communities that we're putting forth effort to reach.
    This past fiscal year, we conducted 40 outreach events, 
reaching about 1,500 Native American veterans. So far this 
fiscal year, we've conducted 10 outreach events, reaching about 
375 Native American veterans. We need to continue to increase 
efforts to reach those in remote areas.
    We've assigned two additional employees and, also, 
purchased an additional vehicle to cover these highly rural 
areas. We also assist veterans service organizations and the 
Veterans Health Administration support homeless veterans with 
stand-down efforts. This past fiscal year, there was several 
hundred veterans who received help with completing claims for 
benefits and who received a substantial meal, warm clothing, 
shoes, haircuts, and identification cards.
    Our regional office employees visit the VA Medical Center 
monthly to reach out to Operation Iraqi Freedom and Operation 
Enduring Freedom veterans and to expedite the receipt of their 
benefits. We also work closely with Congressional liaisons and 
attend outreach events sponsored by Congressional offices.
    Our vocational rehabilitation and employment (VR&E) 
division job labs assist veterans to look for jobs on the 
Internet. We have printers and various other job-seeking 
materials. Our VR&E employment coordinator and the New Mexico 
Workforce Solutions Disabled Veterans Outreach program 
representative are available at these job labs to assist in 
answering questions and to provide them information and 
services.
    We've been highly successful in working with Federal 
agencies in New Mexico, including the U.S. Forest Service, 
Kirtland Air Force Base, and the Bureau of Reclamation, to 
place disabled veterans in suitable jobs. During this past 
year, 12 disabled veterans found employment in a Federal 
posting. Our VR&E staff aggressively marketed the program to 
Federal employers, which also helped veterans participating in 
State vocational rehabilitation programs.
    A monthly employment workshop is conducted in collaboration 
with the Department of Workforce Solutions for veterans within 
the VR&E program, as well as all veterans who have an interest 
in learning basic interviewing skills, resume writing, and 
personal presentation.
    In addition to the staff at the Albuquerque Regional 
Office, we have eight employees that were temporary hires under 
the American Recovery and Reinvestment Act. These employees are 
making direct contributions, to include improving claims 
processing by assisting with development of claims and mail 
processing. The claims processing division, has 81 employees. 
Our vocational rehabilitation and employment division has 11 
employees who also serve at our satellite offices in Las Cruces 
and Santa Fe.
    In conclusion, Mr. Chairman, the Albuquerque Regional 
Office is committed to providing veterans and their families 
all the benefits and services available to them in a timely, 
accurate, and professional manner.
    This concludes my testimony.
    Mr. Michaud. Thank you very much.
    Mr. McCommon.
    [The prepared statement of Mr. Singleton appears on p. 57.]

                   STATEMENT OF GUY MCCOMMON

    Mr. McCommon. Good afternoon, Mr. Chairman, Congressman 
Teague, Counsel. Thank you for allowing me to appear before you 
today to discuss the New Mexico Vet Center's efforts to improve 
rural access and outreach, as well as transition from 
servicemember to veteran.
    VA's Vet Centers are a different kind of environment, a 
caring, nonclinical setting, in which veterans can receive 
care. Vet Centers serve combat veterans and their families by 
providing quality readjustment counseling. Vet Center care 
consists of a continuum of social and psychological services, 
including community outreach to special populations and 
referrals to services with community agencies.
    VA maintains a trained, qualified cadre of professional 
mental health professionals and other licensed counselors to 
provide professional readjustment counseling for combat-related 
PTSD and comorbid conditions, such as depression and substance 
use disorders. Nationally, over 60 percent of Vet Centers 
direct readjustment counseling staff are qualified mental 
health professionals, such as licensed psychologists, social 
workers, and psychiatric nurses. When necessary, for the 
treatment of more complex mental health conditions, Vet Centers 
refer veterans to VA medical facilities for mental health 
services and promote active partnership with their VA mental 
health counterparts to better serve our veterans.
    There are four Vet Centers located in New Mexico: One in 
Farmington, Santa Fe, Albuquerque, and Las Cruces. The Santa Fe 
and Las Cruces Vet Centers are each home to a Mobile Vet 
Center. A core value of the Vet Centers is to promote access to 
care by helping veterans and families overcome barriers that 
impede the receipt of needed services.
    To extend the geographical reach of the Vet Center's 
services, VA has implemented initiatives to ensure that new 
Operation Enduring Freedom/Operation Iraqi Freedom combat 
veterans can access its care. VA Vet Centers in New Mexico 
employ 15 counselors, four office managers, two Mobile Vet 
Center drivers, and one Global War on Terrorism, GWOT, outreach 
technician. Twelve of the 15 clinicians are licensed clinical 
social workers. Eight are bilingual, and 13 are veterans.
    VA has extensive plans to provide outreach services to 
rural communities in New Mexico. In southern New Mexico, the 
Las Cruces Vet Center provides weekly outreach and clinical 
services to veterans in the Silver City area and the Truth or 
Consequences community. They also provide outreach to 
communities, such as Roswell, Artesia, and Alamogordo, 
Lordsburg, and Deming, New Mexico.
    The two Mobile Vet Centers in New Mexico have been 
providing outreach and counseling services in the rural 
communities of New Mexico and several American Indian pueblos. 
A third Mobile Vet Center, housed in Chinle, Arizona, on a 
Navajo reservation, also provides outreach coverage to the 
northwest corner of New Mexico.
    Mobile Vet Center outreach events have been staged in 22 
different New Mexico communities. Most of these efforts have 
coincided with events, such as the Moving Wall, Veteran's Day 
Parade, Run for the Wall, State and local veterans affairs, and 
the yellow ribbon gatherings. Other events include a day at the 
zoo for OIF/OEF veterans in the El Paso, Texas, area, beyond 
the yellow ribbon event for women veterans, and the third 
annual southern Arizona gathering of American Indian veterans 
and the 11th annual Native American symposium in Albuquerque.
    The Mobile Vet Centers have been well utilized for over 79 
different events in the past year alone. Outreach to other 
special populations include visits to some communities that 
have primarily Hispanic veterans, homeless veteran stand-downs 
in Albuquerque, veteran events at veterans service organization 
posts, and other veteran-orientated events.
    The Santa Fe Vet Center has a GWOT outreach technician, who 
provides outreach to National Guard and Reserve units 
throughout the State, as well as at active duty military sites. 
Several local units were deployed to combat last year and are 
scheduled to return home in June of 2010. The GWOT outreach 
technician is working with the New Mexico National Guard State 
family program director and staff to provide outreach and 
counseling services to all units upon their return.
    The GWOT outreach technician from Santa Fe attended 54 
different welcome home events at the National Guard and Reserve 
units throughout the State, veterans clubs gatherings at 
universities, events sponsored by community hospitals for 
veterans, and two powwows for Native American veterans 
sponsored by local tribes. He also has been the guest on two 
radio programs and attended a variety of other community 
meetings to speak about veterans issues and services.
    The New Mexico Vet Centers have provided outreach and 
services at all Post-Deployment Health Reassessments (PDHRA), 
and Yellow Ribbon Reintegration Program events, held by the 
National Guard and Reserve units in New Mexico. And VA's New 
Mexico Vet Centers also provide counseling to 303 recently 
returned combat veterans in fiscal year 2009 and 155 in the 
first 5 months of 2010.
    Thank you for this opportunity to appear before you, and 
I'm prepared to answer your questions at this time.
    [The prepared statement of Mr. McCommon appears on p. 59.]
    Mr. Michaud. Thank you very much, and thank you to the 
other witnesses as well.
    My first question is for Ms. Bowers. You stated that there 
are 105 vouchers available for homeless veterans in New Mexico. 
How many of those vouchers are actually being used?
    Mr. Marnell. Roughly, half of them are being used, and the 
other----
    Ms. Bowers. We did receive new vouchers this year. So about 
50 percent of those were vouchers from 2009, which are 
currently being used. The vouchers from 2008 are being used. 
And so that is--of the 105, we do have those that are 
remaining--that are for 2010. So about half of them are still 
to be issued.
    Mr. Michaud. Do you expect them to be issued soon or----
    Ms. Bowers. Yes. There was some delay here in the State for 
the issuing of the vouchers, and it was a State-related issue, 
and that has been resolved, so we are now issuing those 
vouchers.
    Mr. Michaud. Great. Thank you.
    Also for Mrs. Bowers, you heard Mr. Garcia talk about the 
State Veterans Nursing Home and, looking at VISN 18, you cover 
several States.
    Ms. Bowers. Yes.
    Mr. Michaud. Have you heard from State Veterans Nursing 
Homes in other States, on the problems that they're facing 
because of the new rules and regulations?
    Ms. Bowers. I think all of the State Veterans Homes are 
facing issues because of the new regulations; that it would be 
very difficult for them to maintain the financial viability 
that they have had to this point under the new regulations.
    But we are also seeing other States moving forward with 
additional State Homes, where just breaking--we just broke 
ground in Tucson for a new Veterans Home that is partly funded 
by VA resources. And so I think we have some issues about the 
regulations that are going to need to be relooked at, to make 
sure that those State Homes can remain viable.
    They are of significant benefit to the veterans within each 
of those States, and quite frankly, the national VA would not 
be able to provide nursing home care to veterans in the numbers 
that we do without those State Veterans Homes helping in that 
very special way.
    Mr. Michaud. And as a VISN director--and I've heard the 
same thing from other VISNs as well--are you letting the 
central office know the problems that you're facing within your 
VISN, with the State Veterans Nursing Homes and the rules that 
came out?
    Ms. Bowers. There is the National Leadership Board, of 
which I am a member of, and there has been some discussion at 
the National Leadership Board of these issues.
    Mr. Michaud. Very good. Thank you.
    Under the CARES process that concluded in 2004, some States 
are to receive new CBOCs as new access points. Are there any 
new ones that hasn't been built or presented in VISN 18?
    Ms. Bowers. The two remaining CBOCs for the CARES process 
is east El Paso, which we'll be opening very soon, and----
    Mr. Marnell. The northwest----
    Ms. Bowers. The northwest metro, which is Rio Rancho, and 
that one is also in the process of being established. Those are 
two that are remaining through the CARES process. There are 
some other areas that we have identified within our network, in 
the strategic planning process within our network, for 
additional development of outreach centers, which are small 
CBOCs. Some of them are part time, where they might be 3 days a 
week or 2 days a week, instead of a full 5-day-a-week process.
    And we anticipate that we will be moving forward with 
approval for a number of additional new outreach CBOCs very 
soon. We have been doing planning for this market. The CARES 
identifies the New Mexico/west Texas market as a single market 
for our network, and we are identifying particular gaps in 
mental health care and in some laboratory services that we have 
identified. The new strategic plan this year will identify new 
gaps within those markets as well.
    Mr. Michaud. And as you move forward with the additional 
access points for VISN 18, are you working collaboratively 
with, for instance, the State Veterans Nursing Home? I'll give 
you an example. In Maine, we have two new community-based 
health clinics that are going to be built. State Veterans 
Nursing Home in Maine have actually been working with the VA, 
so, at their State Veterans Nursing Home site, there's going to 
be a brand new CBOC and low-income housing on their facility. 
So we have a campus with providing a lot of veterans services.
    Likewise, in the western Auburn area, the State Veterans 
Nursing Home knew that there was going to be a facility down in 
that area, so they actually went out and were able to purchase 
land with the option to buy, so they can build the new CBOC 
there. But, also, they want to offer, on that same campus, 
adult day care facilities for veterans.
    So as you move forward with new access points, are you 
working collaboratively with the State Veterans Nursing Homes 
to see if they might be able to do a similar thing in this 
region?
    Ms. Bowers. Well, I will admit that we have done more in 
the State of Arizona than the State of New Mexico. There are 
two--beside the breaking of the ground of the Tucson VA--Tucson 
State Veterans Home, which happens to be on the grounds of the 
VA Medical Center in Tucson, so the State Veterans Home will be 
co-located with that VA facility. And in Phoenix, the State 
Veterans Home is on the campus or adjacent to the campus of the 
Phoenix VA Medical Center.
    We do have CBOC locations in the areas of--in the same 
towns that we currently have the State Homes here in New 
Mexico, and I think it's a wonderful idea, when construction is 
being planned, for us to work together.
    Mr. Michaud. Thank you.
    Mr. McCommon, first of all, thank you for the tour of the 
Vet Center earlier this morning. I really appreciate it, and I 
think Vet Centers are definitely worth the money that are put 
into them. The peer-to-peer counseling they offer and the work 
of Vet Centers all across the country is to be commended, and I 
commend you as well for what you're doing here in New Mexico.
    My question is, if you had a wish list of anything else 
that you would need for Vet Centers, what would that wish list 
be? Now is your opportunity.
    Mr. McCommon. Congress has been very generous with 
readjustment counseling services over the last few years, as 
far as adding appropriated funds, so that we could expand. My 
personal wish would be to see a Vet Center in every community 
that had veterans in every State in the Nation, so a veteran 
would not have to take and travel to get services. That would 
be my personal wish, and I know it is a wish.
    Mr. Michaud. Thank you.
    Ms. Bratton and Mr. Singleton, I've been impressed, with 
the statistics of the number on veterans that the VA has 
reached out to through the TAP sessions. However, the output 
data talks about the number of encounters that you've had with 
the individuals. I'm really interested in what really matters, 
quite frankly; the quality of the outreach and the message that 
is being conveyed to the individuals who attend these TAP 
sessions. I'd like to know if you have any performance measures 
that would actually measure and track the outcome of 
individuals that attend these TAP sessions.
    Ms. Bratton. Currently, no, but we do measure them 
initially. We do have surveys that we do, that give us the 
feedback from that. Unless there is a critical need, that's 
kind of where our services end, as far as tracking them. We do 
do continued workshops, as the VA folks do, also, of the 
resumes, and maybe global feedback that they give us that the 
services are outstanding.
    The Air Force Wounded Warriors, we track those folks every 
month, that we have in our area, so we know what their status 
is every month for at least 5 years. But the other folks, you 
know, we don't track them after they get done with the 
transition case.
    Mr. Michaud. Mr. Singleton.
    Mr. Singleton. Yes, sir. I'm not aware of any information 
being tracked. We do get the feedback after the session or when 
the veteran applies for a claim. We'll ask how did the briefing 
go? What did you hear? We look at the veterans input to see if 
we can tweak the presentation or focus on things they discuss. 
But written tracking, not that I'm aware of.
    Mr. Michaud. Thank you.
    Mr. Teague.
    Mr. Teague. Thank you. I thank all of you again for coming.
    Ms. Bratton, on the issue of the disabled airman, you know, 
I think that that's wonderful, how you all are reaching out to 
the veterans. You said that you provide this for airmen that 
are in the process of filing a claim. Do you reach out to that 
veteran once they're in here, in recovery, or, I mean, is it a 
proactive or reactive type of situation?
    Ms. Bratton. Some of both. Proactive when they're still 
active duty folks, and they're getting out, and we have those 
workshops. Reactive, because sometimes you have folks that have 
already retired from the military that come to our monthly 
disability workshops. Reactive, in the sense--it's somewhat 
proactive, again, when you're talking about your Air Force 
wounded warriors and continuing with their tracking process, 
making sure that system is flowing well for them.
    Mr. Teague. Do you also offer any counseling for the 
families of wounded warriors?
    Ms. Bratton. Absolutely. Not only for the wounded warriors, 
but for our retirees and our military members. Very high on the 
scope is our Air Force wounded warriors. Again, back to that 
full continuum of care, anything that they need is a number-one 
high priority, whether it's relocation assistance for housing, 
employment, mental health services. Absolutely, sir.
    Mr. Teague. Ms. Bowers, I thank you for coming, and I guess 
you probably came the farthest, though not a lot farther than 
Boyd came. Where is it from Mesa? About 300 miles or a little 
over?
    Ms. Bowers. It's an airplane ride for an hour. I don't 
know.
    Mr. Teague. Well, Dalton didn't get to ride in the 
airplane. He had to drive his 250 miles.
    But, hey, we're going to have several questions for you, 
actually, but one of the first things I wanted to address was 
the issues that come up frequently in New Mexico, regarding the 
story in Farmington about what's going on up there. And I 
wonder if you maybe, you could put that to rest since, as you 
said earlier in your testimony, that most of the things are 
being done in Arizona and VISN 18, that, now, we're starting to 
see them happen in New Mexico.
    Ms. Bowers. Oh, I didn't say most things were happening in 
Arizona. I did mention the State Home, our relationship. The 
story out of the Farmington Press--and I will tell you that I 
found out about this when the newspaper article came out--that 
someone in the Farmington area wishes to build a hospital, 
spending $3 billion on the construction of this facility; 
promises 8,000 jobs at that facility. And the plan is to lease 
that facility back to the VA, so that the VA would be the 
occupant and the person who would be using that facility, and 
it would be placed in the area around Farmington.
    That was the first I had heard of that. It came as a 
surprise to me, since that is an area that is under my 
jurisdiction and my strategic planning area, so I was surprised 
to see that. And, quite honestly, there are a number of things 
about the proposal that concerned me. There has never been a VA 
hospital built anywhere for over $1 billion, and this is to be 
$3 billion. They also say that it will employ 8,000 people. In 
my entire network, I have just slightly over 10,000 employees. 
So the scope of the program is a little extreme.
    They are talking about some assisted-living facilities 
being built there as well, and under current regulations, VA is 
not permitted to pay for assisted living, so those would not be 
facilities that the VA would even be able to operate, if they 
were constructed.
    They keep saying that they're talking to someone in VA, but 
I have not yet been able to figure out who this--who they have 
been talking with. I do know that VA does have a very extensive 
strategic planning process, that works from the national level, 
and that it identifies the areas for growth and where the next 
VA hospital will be built, and it is not in the Farmington 
area. Basically, they're looking for a large-population areas, 
which, of course, are urban areas. They're not rural areas. So 
I'm not sure that the concept is one that the VA would readily 
respond to.
    Mr. Teague. If I could skip around a little bit, but I'd 
like to ask Secretary Garcia: Is there any New Mexico 
connection to that VA?
    Mr. Garcia. Mr. Chairman, Congressman Teague, this is an 
individual that came out of Colorado; apparently, says he's got 
a lot of money. During the legislative session, he came by our 
office, and when the press release came out, it was new to us. 
Immediately, we talked to George Marnell about it, the VA, and 
we're not engaged with it, nor is the VA. We've already talked 
to some of the community leaders up in Farmington, so right 
now, it's a lot of blue sky and smoke. That's what I think 
about it.
    Mr. Teague. Okay. Back to you, Ms. Bowers. As you're well 
aware, our CBOCs in New Mexico are growing, and many of the 
facilities are outdated. Could you tell us about any specific 
steps that were taken to maybe upgrade them?
    Ms. Bowers. We have, right now, ongoing, an entire plan for 
the expansion of our CBOCs. We are looking for additional space 
in Artesia. We're looking for relocating the clinic in Silver 
City to be larger. When I say ``relocating,'' it means to a 
bigger building, not to a different city.
    Mr. Teague. If I could interrupt just a little bit right 
there, but--since we're talking about Silver City--you know, 
I'm proud to say that I have a very active group of veterans 
that--veterans advocates from Silver City, New Mexico, and 
they've been speaking to me about the possibility of the new 
Fort Baird Hospital there in Grant County housing the CBOC. Is 
that something--since we're looking for space and that's been 
made available, is that something we could look at?
    I mean, I know that it's usually done different, but, I 
mean, we're doing a lot of things out of the box, and 
everything. And could we possibly do that with a memorandum of 
understanding with the county, or something? Is it something we 
could at least consider in looking into?
    Ms. Bowers. The advertisements are going out in the paper 
on April the 15th, and it would be very feasible for the 
hospital to--you know, to put forward their space as space that 
we could potentially lease. In fact, we would very much 
appreciate that. Many of the CBOCs in the areas that I have 
been in before are actually located in professional clinic 
space, within hospital settings. So if they're in the process 
of putting something together, they have some space available, 
we would really appreciate their responding to the ad we will 
be placing in the paper in April.
    Mr. Teague. Thank you. I'm sorry I interrupted you. Go back 
to what you were saying. But I did want----
    Ms. Bowers. I think that's an excellent idea.
    We're also looking at expansion in Rio Rancho. We are also 
looking at relocation and expansion in Farmington; also, in 
Raton. That is already out in the paper. And so we're looking 
for additional space there. In Gallup, we're looking at 
additional space, summertime of next year. And Santa Fe, that 
has just moved into some expanded space just in March of this 
year, and we will be looking for a new, larger lease in 2012.
    So there are quite a few activities that we're doing in 
expansion of the CBOCs. Our clinics were built based upon 
projections that we put out 10, 12, 15 years ago. Some of the 
clinics opening 5 years ago are already bursting at the seams. 
We've added additional staff and to accommodate the veterans, 
and we're running out of room, and that's why each of these are 
up for expansion and relocation.
    Mr. Teague. And one other thing. Could you expand, for the 
benefit of everyone here, just a little bit, about how you're 
making the facilities more inviting and accessible to female 
veterans?
    Ms. Bowers. Certainly. Our female veterans are a very 
important part of the veteran population. They're small, but 
mighty, and I'm very pleased that our women veterans are being 
seen as a very active part of the people that we need to serve. 
And they have served, and now it is our turn to serve.
    We have a women's veterans coordinator in VISN 18 who is 
responsible to oversee the activities of women veterans, not 
only in the main hospitals, but, also, in all of the CBOCs. We 
are making sure that our facilities are much more friendly to 
women. We're looking at new tables that will accommodate women 
and women examinations. We're putting in curtains, so that 
there is a guarantee of privacy, because privacy is very 
important to women.
    In our Medical Centers, both in Albuquerque and in El Paso, 
we do have women's clinics that are specially set aside for 
women. We have a new program that we are doing, along with 
Network 19, which is north of us, and it is a training program 
for primary care physicians, to assure that they can do gender-
specific care. And a number of our CBOC primary care physicians 
have attended this very special program. It's a week long. It 
retrains them on women-specific care, because many have not 
been doing a lot of women's care. So this is to really bring 
their skills back up to where they need to be. So we're really 
focusing a lot on women veterans, both in terms of our physical 
plant and the skills and approach that we take to women in our 
clinics.
    Mr. Teague. Good, and thank you for that.
    Mr. Singleton, thank you, also, for coming in. In the short 
time that you've had this job in New Mexico, we've seen you in 
southern New Mexico a lot, and we want you to know that we will 
continue to do that. Once or twice a month, you can come 
someplace in southern New Mexico.
    Mr. Singleton. All right.
    Mr. Teague. But, you know, Secretary Shinseki recently 
announced that it's his goal to cut the claims process in time 
to 120 days. Could you tell us how we can meet that goal in our 
regional office here, and are there barriers that we need to 
take down so that we could meet that goal, and are there other 
assets that you need to help you to get there?
    Mr. Singleton. Secretary Shinseki actually put out the 
mandate that we need to break the back of the backlog, so that 
means that we do not have any claims being processed over 125 
days. What our office is doing is, we are focusing on getting 
the evidence received much quicker than we have in the past. 
Once you get all your evidence in and all the examination 
reports then you can adjudicate the claim.
    So we're doing about three different things. One is that 
we're getting on the telephone at the first part of the 
application, with the original application. If there seems to 
be any questions regarding the application, our people are 
calling the veteran to clarify, so there won't be, down the 
road, additional issues that come up; and, thereby, prolong the 
claim.
    If the examination's been ordered and it's been done, and 
we haven't received it within a reasonable period of time, we 
get on the phone to the Medical Center or to the doctor to try 
to get them to send that evidence in to us, so we can 
adjudicate the claim. We're anticipating and striving to cut 
evidence receipt time down to between 45 and 60 days, to put us 
in a position to be able to adjudicate the claim.
    The other thing we're doing is, we're having a team of 
people review all the claims over 125 days, to see what we can 
do to get them moving. And one thing we're looking at is 
looking at the claims that have few issues. As you know, the 
fewer the issues, the easier it is to adjudicate. So we're 
doing that, and we think we're going to have some progress with 
that. So those are two of the things that this office is doing 
right now.
    Mr. Teague. You know, I want you to be sure and keep us 
abreast, apprised of anything that you need to be able to reach 
that goal, because we want to help you get there, if you need 
more people, or whatever it is.
    But, you know, at the last meeting that we had in 
Alamogordo with Secretary Shinseki, a member of my veterans 
advisory council brought up the deal about, as a Vietnam 
veteran, when he was getting out, he had been forced to sign a 
document that waived his rights to benefits out of the VA 
before they would let him out to come home. He claimed that 
other veterans were made to sign the same document.
    Now, we've been working with the Secretary to get some 
answers on whether that was legal and whether those veterans 
would be entitled to VA benefits, and they've told me that the 
VA has told me that any of those signed documents would not 
stand up in court. So we know that that's happening, but could 
you offer us any insight on the issue and, perhaps, suggest a 
way in which we can inform veterans that they are still 
entitled to their benefits?
    Mr. Singleton. I wish I could. We have been processing 
claims that veterans have filed that have that information on 
it, from what I understand. I wasn't aware of that until at 
that meeting. The gentleman did mail us in a copy of the DD-
214. We saw them. I'm having two people look into it. But 
locally, we haven't found anything to address that. But we 
haven't stopped. But we just haven't found anything.
    Mr. Teague. Okay. You know, we've still got Guy and Dr. 
Marnell here, and I'm sorry, but we're out of time, so we're 
going to have to cut things short, but I just want to say a 
couple of things.
    Guy, I wanted to thank you for all of the work that you're 
doing, but they're at the back of the room waiting on you, 
because you missed the chance to say we need the Vet Center in 
Silver City and Roswell, like we practiced all that time and--
--
    Mr. McCommon. I said every city, all cities, sir.
    Mr. Teague. But, you know, we do want to take every 
opportunity that we get to brag on the operation that we have 
here in Las Cruces, with the Vet Center and everything that it 
does.
    Mr. Marnell, I want to thank you again for coming down. 
You've made the trip down here twice in a short period of time. 
I appreciate that.
    I definitely appreciate my chairman coming from Maine at 
the time that he needed to be visiting with his constituents 
back there, to visit with y'all. But more than thanking the 
witnesses and thanking the Chairman, I want to thank all of you 
that came today, because it's you that's going to allow the 
Chairman to go back and say that there's a large group of 
people in southern New Mexico that want to help the veterans, 
and we need to help them help the veterans, and that's how we 
get the information back to DC and to those decision-makers.
    One other thing. You know, while we're here, a lot of 
times, we need to talk to the other people that are here, and 
so please don't waste this opportunity. If there's someone here 
you're needing to have conversations with, and we don't have 
time today, exchange numbers so that you can do that, please.
    Thank you for coming. Thank you, Mr. Chairman.
    Mr. Michaud. Thank you, Congressman Teague. I guess I have 
just one last question for Ms. Bowers, and concerns rural 
issues. Mr. Garcia talked a little bit about how the rules on 
cemetery policy hurt rural areas.
    Earlier last year we had a hearing where a former facility 
director came before us and used the terminology ``the mother 
ship'' in referring to the VISN office. And in our case, the 
VISN 1 offices located in Boston. And part of the problem that 
he looked at, from what I'm hearing from some VSOs in Maine, at 
their mini-Mac meeting, is that the VISN central office 
sometimes doesn't get the resources needed to the rural areas.
    As an example, we heard earlier that Congress did increase 
the mileage reimbursement rate from 11 cents to 41 and a half 
cents. In Maine, for instance, which is part of VISN 1, their 
total output or costs for that increase is a little over $5 
million, but they only receive $1.5 million from the VISN 
office. So they're shortchanged. So, now, they're getting 
pressure--and this came out in the mini-Mac meeting--from the 
mother ship, so to speak, to bring their budget in balance. And 
one item that they're looking at is reducing fee-based care to 
have their budgets met.
    You have a huge territory within VISN 18. There's a huge 
need for access points out there, and I'm sure mileage is a big 
issue here as well. How are you dealing with the facility 
directors, to make sure that they have the resources that they 
need to operate the facilities in the way that they should be 
operated, and they're not being forced to make tough decisions 
on whether to hold a position open, a vacancy open, so that 
they can actually meet the budget needs within the region?
    Or, if facilities are forced to reduce fee-basis services 
even though there's increased money within the VA budget, what 
are the outcomes? How do you deal with the different facility 
directors' needs in the really rural areas when you distribute 
the money?
    Ms. Bowers. Stewardship of resources is part of our 
responsibility, and when you, as Congress, provide us with the 
resources to run our facilities, it is our job to do that 
within those dollars. And sometimes those do require us to have 
some very difficult conversations and to take some very 
significant looks at what we do.
    I know that the Albuquerque Medical Center is--it has 
really faced an issue with the additional reimbursement for 
mileage. In fact, Mr. Marnell did, in fact, send the network a 
briefing paper about the impact, and it was multiple millions 
of dollars of impact in transportation just at that one 
facility.
    We, as a network, distribute our dollars based upon both 
the VERA allocation and the complexity and some other features 
related to the patients at each one of the Medical Centers. Our 
facilities--and this network, long before my time, has realized 
that rural care is a very important part of what we do, so we 
actually are ranked among the best in the Nation for having 
veterans within 30 miles of a CBOC, which, given our geography, 
is actually a pretty big thing to do. But we have put a lot of 
our resources into rural care and into the development of CBOCs 
because we know that's where our veterans are. That's where our 
patients are located.
    We know that we have financial issues. One of the things 
that happened this year was a patient that created a 
catastrophic impact on one facility. As a result of that, I had 
asked for the development from our financial group of a 
catastrophic care policy. The network always has a little bit 
of money that it puts aside for bailout, and we have had to use 
that when we have particular care needs that we have. So a 
catastrophic policy, when there is a veteran that may cost us a 
half a million dollars or more for the care of that single 
veteran, he would have a catastrophic care policy that would 
help that facility deal with those expenses.
    Particularly difficult things, like the increase of 
mileage, has actually affected all of our facilities, not 
equally, but pretty close to equally. So we have, basically, 
told our facilities that we need to deal with that within the 
budgets that have been distributed, because it does have a 
fairly profound effect on most of our facilities.
    Stewardship is important, and we do not want any veteran to 
not receive the care they need because of a financial issue, 
and that's why the network is putting the catastrophic care 
policy together, why we have funding that we have put aside. 
Unfortunately, what we have put aside is money that could be 
used to purchase other things, such as equipment, and my 
greatest fear is that we use all of those dollars for daily 
business and neglect our capital investment in equipment.
    So we very much try to balance that. My financial staff 
give me an update every couple of weeks on how each facility is 
faring, in terms of both expenses and dollars. So I keep up on 
the condition of the financial situation in each facility on a 
regular basis, and I feel that the network is there to help the 
facilities, not necessarily beat them over the head.
    Mr. Michaud. I appreciate your straightforwardness. As a 
Member of Congress, that's one of the things that is important 
to me, that, yes, even though we have substantially increased 
money to VA over the years, the percentage isn't important. 
What is important is, are we taking care of the needs that are 
out there; versus, an increase of 10 or 15 percent, but a 
failure to take care of the needs.
    I appreciate your stewardship in looking at the finite 
resources that we have at the Federal level to give out. But, 
also, it's very important that we make sure the veterans get 
the help that they need. And the fact that the facility 
directors have to live within their budget, when, in fact, 
they're being strained because of mileage reimbursement costs; 
there's not enough money to take care of the needs, I think 
it's unfortunate, because then the VISN office and facility 
directors will have to make tough decisions: Well, do I hire 
this new person? Do I leave a position vacant for quite some 
time? Or do we reduce the amount of fee-basis services, which 
will ultimately hamper the services that our veterans in rural 
areas receive?
    I think it's very important for those of us who sit on the 
Veterans' Affairs Committee and the appropriators to know 
exactly what the need out there is, and try to address the 
need; rather than looking at increases in the budget, because, 
quite frankly, with our aging population, with the veterans 
from World War II and the Vietnam veterans, and the ongoing 
need of Iraq and Afghanistan veterans, who will have tremendous 
needs, I think it's important that they get the services they 
need. If we cannot help them early on, whether for PTSD or 
traumatic brain injury, then those costs are going to be 
extremely high later on down the road.
    But it's not only the costs to the veterans. It's also the 
effect that it has on family and, ultimately, on the State, 
because State resources will be used if people end up homeless 
or on State aid. And I think that's why it's very important 
that, as elected officials, we know exactly what that need is, 
rather than whether it's increased 10 or 20 percent. That's 
only a number. I think what's important to us is, the 
fundamental question--are we meeting the need that's currently 
out there?
    And it concerns me, as Chairman of the Health Subcommittee, 
that some facility directors are actually making that tough 
decision of not contracting out fee-basis services or not 
hiring a physician because they need to live within the budget. 
They have to live within the budget, but we have to make sure 
that the budget is adequate to take care of the need. We need 
to make sure that these decisions are medically-driven and not 
just budget-driven.
    I want to thank you and the other panelists for your 
testimony this afternoon, and I want to thank everyone who came 
out this afternoon to hear what's going on in veterans health 
care. I especially want to thank Congressman Teague for 
inviting me out here to have this hearing and for all of his 
hard work on the Veterans' Affairs Committee. So, once again, 
thank you. If there are no other comments or questions, the 
hearing is adjourned.
    [Whereupon, at 4:28 p.m., the Subcommittee was adjourned.]















                            A P P E N D I X

                              ----------                              

        Prepared Statement of Hon. Michael H. Michaud, Chairman,
                         Subcommittee on Health

    The Subcommittee on Health will now come to order. I would like to 
thank everyone for attending this hearing. I would also like to express 
my sincere gratitude to New Mexico State University for their 
hospitality in hosting this hearing. Today's hearing would not have 
been possible without the efforts of Mr. Teague. I thank Mr. Teague for 
his work as a tireless advocate for veterans and for inviting us here 
today to Las Cruces to learn about the local needs of veterans in New 
Mexico.
    Today's hearing will cover a wide range of issues to ensure that 
our veterans in New Mexico and across the U.S. receive the essential 
services and benefits that they need and deserve. Among the issues that 
we will discuss today are homeless veterans, mental health, 
reintegration, outreach, and health care for rural veterans.
    In this Congress, we've held several hearings on these issues. For 
example, my Health Subcommittee held a hearing on rural veterans in 
March of 2009 and an outreach hearing in May of 2009. Under the 
leadership of Chairman Filner, we also held a hearing on homeless 
veterans in June of 2009 and I am happy to share that the House passed 
H.R. 4810, a comprehensive bill to help homeless veterans, on March 22, 
2010. H.R. 4810 included provisions from two important bills that Mr. 
Teague introduced. H.R. 2504, which increased funding for the Grant and 
Per Diem program and H.R. 3906, which increased funding for supportive 
services for low-income veteran families in permanent housing. This 
year, in 2010, the Full Committee also held a roundtable to discuss 
issues facing rural veterans in January and another roundtable on 
reintegration issues this past March.
    We have learned a lot from the series of hearings and roundtables 
that we held in Washington D.C. However, these issues are of such 
magnitude that they warrant further discussion here today. I look 
forward to hearing the testimonies of our witnesses and learning about 
the unique challenges facing our veterans in New Mexico.

                                 <F-dash>
        Prepared Statement of Pamela Angell, Executive Director,
            Mesilla Valley Community of Hope, Las Cruces, NM

INTRO

    Good Morning: I am Pamela Angell, the Executive Director of the 
Mesilla Valley Community of Hope, a non-profit agency in Las Cruces 
that helps homeless people with outreach services, a daytime drop-in 
center, and several HUD housing programs.
    I am here to address chronic homelessness among the veteran 
population of our citizens of the United States.
    President Obama and the Department of Veterans Affairs have made 
ending homelessness among veterans a top priority with a 5-year goal. 
If indeed the VA and Obama Administration wish to meet this goal they 
must shift their policies so they can address the needs of all homeless 
veterans, including those we characterize as chronically homeless--men 
and women who have had repeated episodes or lengthy periods of 
homelessness, some lasting a decade or more.
    I will explain why I think the Dept. of Veteran's Affairs current 
homeless programs and policies fall short in addressing the needs of a 
large segment of the homeless veteran population--those who are defined 
as chronically homeless. I will also attempt to explain how a slight 
shift in policy can help the VA come closer to its goal of ending 
veteran homelessness.
    Nationwide, it is estimated that one third of our adult homeless 
population are veterans with as many of those defined as chronically 
homeless. While many of the VA's current programs will help reduce 
homelessness among veterans, a large segment of the population will 
remain homeless if new programs are not established to meet their 
needs.
    This week I went out to three homeless camps along Interstate 10 
that have recently drawn the attention of the City Code's Enforcement, 
the NM Department of Transportation and the NM State Police. Plans are 
in effect to clear a 3-mile swath of trees and brush from along the 
highway right-of-way from the river to the City Solid Waste facility. 
The intention is to drive out nearly a dozen homeless people who have 
set up camps along this property and discourage their return by 
clearing the area of undergrowth and trees.
    I visited the area with the Homeless Outreach Coordinator for the 
U.S. Dept. of Veterans Affairs in El Paso, Jo-el Arrigucci, and my case 
manager, Sue Campbell. We let those living there know that they have a 
May 1st deadline to move out before the bulldozers and law enforcement 
come in. Many of them will leave with no resistance, only to find 
someplace else, likely equally as illegal, to set up camp if we cannot 
come up with an alternative for them.
    Among those we spoke with is an honorably discharged veteran and 
his girlfriend of 15 years. When we offered him various services from 
the VA--including the HUD-VASH voucher program his reply was, ``I don't 
like living in a dadgum prison.'' He also doesn't like crawling out of 
his tent in the morning when it is 20-degrees, or chasing off teen-
agers who are throwing stones at his camp and spraying silly string, as 
they did last week. This veteran and his partner have lived along this 
stretch of highway off and on for 6 years, sometimes moving to Colorado 
to camp out near Colorado Springs and to Florida to look for work.
    Another fellow we spoke with was already intoxicated by 10 am and 
said he saw no hope and no alternative to where he is currently living. 
Alcoholism is a big problem among homeless veterans. Nearly 60 percent 
of homeless veterans report problems with alcohol and 40 percent with 
other substance abuse. It is estimated that at least another 10 percent 
have mental health issues, and in many cases include combat-related 
Post Traumatic Stress Syndrome. A large part are just plain fed up with 
a system that didn't meet their needs, or left them hanging for years 
denying them benefits for which they are eligible, or offer services 
that try to fit a square peg into a round hole.
    While the VA has a very good Transitional Housing Program and a new 
HUD-VASH (VA Supported Housing) voucher program to help get veterans 
off the streets, the VA has not yet bought into what is one of HUD's 
most successful systems for ending chronic homelessness. The concept of 
Housing First. Housing First is housing without the hurdles, without 
the judgments, and without the restrictions that come with many other 
programs. The focus of Housing First is to help chronically homeless 
people get housed and stay housed. Many other programs, including the 
VA's enforced sober transitional housing program make housing 
contingent upon sobriety or adherence to strict treatment guidelines. 
As a result, many chronically homeless veterans, whether they have 
substance abuse or mental health issues or not, are not going to come 
in from the extreme heat or cold for housing with strict rules.
    Housing First uses adherence to a lease as the main rule that 
tenants have to follow, and provides assistance in helping them adhere 
to that lease. Treatment and service options are client driven and not 
mandated. Participation in programs is not a condition of having a 
home. Housing First works in many big and small cities throughout our 
Nation and can work to help end veteran homelessness as well. Google 
Housing First and you will find numerous successful programs all across 
the country, including our own program here in Las Cruces. Google Harm 
Reduction and you also will find many modalities that support giving 
people the free will to come up with their own strategies to meet life 
on their own terms rather than a prescribed plan of requirements that 
will not fit all people. Many of these folks have followed rules and 
orders throughout their combat and military careers. We can give them 
an option to homelessness that does not require that they comply with 
numerous more restrictions. We all march to different drummers, and if 
we want to end homelessness among veterans, maybe we need to let them 
march to their own as well.

                                 <F-dash>
      Prepared Statement of Dalton Boyd, Veterans Service Officer,
         New Mexico Department of Veterans' Services, Hobbs, NM

    Before I begin, I would like to thank Chairman Michaud, Congressman 
Teague and the House Veterans Affairs Subcommittee on Health for the 
opportunity to address you today. The issues being discussed in today's 
hearing are critically important to our veterans, to whom I believe 
deserve the full measure of our efforts to provide for them the rights 
and services that they deserve.
    My name is Dalton Boyd and I am employed by the New Mexico Dept. of 
Veterans Services. I have the privilege of serving our veterans as 
their Veterans Service Officer. As one who works with our veterans on a 
daily basis I feel that I have a unique perspective concerning the 
needs of our veterans. I see their individual needs daily and draw from 
the resources available to aid them in addressing their needs.
    I would like to begin by addressing VA Health care for Veterans in 
rural areas. I personally believe that the VA provides world class 
health care but, as with anything else there is always room for 
improvement. Veterans in rural areas face some unique problems with 
fragmented health care being one of those problems. We have a very good 
Community Outreach Based Clinic in my hometown of Hobbs but they 
provide only basic services with preventative health care being their 
primary focus. Veterans with special needs must travel hundreds of 
miles for treatment by specialist or facilities that can meet their 
needs. For example: veterans from Hobbs with cardiology or orthopedic 
conditions have to travel to Albuquerque for treatment, a round trip of 
640 miles. Often these are older WWII veterans in their 80s, in poor 
health and for whom a trip of 640 miles or more for medical care is 
very difficult if not impossible. I realize that Fee Basis is a very 
costly undertaking for the VA and I understand the concept that if the 
VA can treat a veteran they will provide that treatment at a VA 
facility in part, as a cost cutting measure. It is my opinion that Fee 
Basis should be more readily available to veterans in certain 
circumstances. For example, an 85-year-old WWII veteran with a serious 
heart condition or a veteran taking chemotherapy should be given 
consideration for care locally through Fee Basis.
    I would also like to address the lack of resources available for 
Homeless Veterans in rural areas. A lot of progress has been made in 
caring for our homeless veterans. Homeless veterans in metropolitan 
areas have numerous options and we are all grateful that they have 
those options. Those options often do not exist in rural areas. In 
practical terms, homeless veterans that I see in Hobbs have 2 options: 
temporary shelter at a facility within Hobbs or entrance into a 
substance abuse treatment program with the VA Hospital in Big Springs, 
TX. We do have the New Mexico Veterans Integration Center in 
Albuquerque, the Mesilla Valley Community of Hope in Las Cruces and the 
New Mexico State Veterans Home in Truth or Consequences. Homeless 
veterans in rural areas often are not able to relocate or do not want 
to relocate to areas far from what has been their home and comfort 
zone. What they often seek is temporary assistance within their 
community. I do not know what the solution to this problem is but I do 
know there is a need for a solution.
    I would also like to speak about services for veterans 
transitioning from the military to civilian life. New Mexico veterans 
receive readjustment counseling services from Vet Centers located in 
Albuquerque, Farmington, Santa Fe and Las Cruces. Lea County veterans 
are served by the Midland, Tx Vet Center. The Vet Centers provide 
readjustment counseling services to combat veterans. Most of the 
veterans they serve suffer from PTSD and depressive disorders. The Vet 
Centers serve veterans from WWII through present day combat veterans. 
According to the New Mexico Department of Veterans' Services 2008 
Annual Report there are approximately 179,000 veterans in New Mexico 
with 39,246 Gulf War, Iraq, Afghanistan era veterans and 52,011 Vietnam 
era veterans. The bulk of the Vet Center's clients are OIF/OEF and 
Vietnam veterans.
    Of course the VA provides mental health care on a number of levels 
through the COBCs, Hospitals and Telehealth. The Vet Center counselors 
are, as I see them, the front line troops in the battle with mental 
health problems. They have the mobility, conduct the outreaches and 
take their expertise directly to the veterans. Critically important is 
the fact that the Vet Center also provides services to the family 
members of veterans.
    An article in Psychiatric Times reports rates of PTSD in returning 
troops average 15 percent to 16 percent and that up to 35 percent meet 
the criteria for major depressive disorder. Clearly these rates 
represent a large number of veterans in need of mental health care. As 
the number of deployed troops is reduced and the troops are brought 
home, the number of veterans in need of Mental Health Care services 
will rapidly increase. We have to be prepared to meet the needs of the 
growing number of veterans in need of mental health care.
    I appreciate the opportunity to address you today. I hope that I 
have given you a clearer understanding of some of the issues facing 
veterans in rural areas and the task that the VA's mental health care 
providers are confronted with.
    Thank you.

                                 <F-dash>

 Prepared Statement of Raul V. Sanchez, Commander, Veterans of Foreign 
  Wars of the United States, Department of New Mexico, Alamogordo, NM

    Chairmen Michaud, Ranking Member Brown, Member Teague and 
distinguished Members of the Subcommittee, it is my honor to be here 
today to represent the VFW members in New Mexico here in Las Cruces and 
around our wonderful State.
    I come before you as an advocate for our brave servicemen and 
women, and for veterans and their families from all eras. I come before 
you as a reminder that those who go to war return home with an 
obligation to make things better for every ensuing generation who 
follows. This is central to the VFW's core value ``to honor the dead by 
helping the living.''
    With these thoughts in mind I would like to address a number of 
issues that we are facing here in New Mexico. Foremost among them is 
VA's claims backlog and unacceptable waiting times for veterans seeking 
care.
VA CLAIMS BACKLOG
    VA currently has more than 1.1 million individual claims and 
appeals for compensation, pension and education benefits. Right here in 
New Mexico's own regional office of Albuquerque there are 6,240 
disability compensation claims and appeals pending. Over the past year 
this backlog has grown by more than 10 percent. Of the nearly 3,400 
claims requiring rating action, 38 percent are pending over 125 days.
    Rating quality reviews show a whopping 19 percent error rate. That 
is, 1 in every 5 cases VA decides in New Mexico is wrong.
    The evidence shows that the Albuquerque VA Regional Office fails to 
provide adequate service in all three areas that VA measures: workload, 
timeliness and quality. This is totally unacceptable.
    VFW has made reforming the VA claims processing system a top 
legislative priority.
    The VFW realizes there is no silver bullet to fix VBA, but there 
are opportunities for steady and deliberate improvement. We also know 
that any single plan to make the overall claims process simpler could 
occur at the expense of the rights and benefits earned by veterans, 
their dependents and survivors. A quick fix plan is simply unacceptable 
because fixing the backlog will require thoughtful solutions to avoid 
harming veterans and exacerbating the problem.
    VBA is the key to everything the VA does, so the VFW will continue 
to offer its expertise to the VA and your committees so that we can 
solve this backlog problem together. Veterans have grown tired of the 
excuses. They want and deserve action. The VFW wants to help.
    The VFW has offered potential solutions in testimony and in The 
Independent Budget, but we cannot wave a magic wand and make the 
problem go away. Our suggestions have included improvements to the 
funding process; increased emphasis on ratings decision accuracy 
instead of speed; improvements in staff education and training; and 
increased use of technology.
    Unfortunately, it may be years before VBA will be able to reduce 
the backlog and improve rating timeliness and accuracy. We believe 
however, that VA can still make incremental improvements to demonstrate 
to veterans that it is both candid in its problems and responsive to 
their needs. Some of the first steps would be:

    <bullet>  Demand a total commitment from VA leadership to do every 
claim properly the first time.
    <bullet>  Improve VA's IT infrastructure to include adopting 
paperless initiatives to help transform VA into a 21st Century agency.
    <bullet>  Upgrade and enhance training systems that invest in 
skills and knowledge of VA employees, reducing turnover and improving 
quality.
    <bullet>  Higher accountability and accuracy standards for 
adjudicators. VA must hold every employee and manager accountable for 
quality as well as providing proper positive incentives for production 
goals.
    <bullet>  Ask Congress to commission a third-party study of the 
quality assurance of claims processing at VBA.

    We envision a VBA of the 21st Century, one in which veterans 
receive accurate and timely decisions. Congress must invest in the 
long-term success of VBA, which is only achieved through constant 
improvement. Part of the improvement process is utilizing service 
officers and other advocates who can help navigate through the system.
    The VFW and other VSOs have a nationwide network of excellent 
service officers including our own Fred Ortiz, but we can only help 
those who seek us out. For a veteran who navigates the bureaucratic 
process without a service officer to guide them, it can be a nightmare, 
and a number of them simply give up, which means they lose their earned 
benefits, their disability compensation and their access to VA health 
care.
VA MEDICAL CARE
    As the Nation's largest health care provider, the Veterans Health 
Administration (VHA) has four primary missions that benefit veterans as 
well as the entire country. They are:

    1.  Providing health care and services to America's sick and 
disabled veterans;
    2.  Training and educating doctors, nurses and other health care 
professionals;
    3.  Conducting world-class research into medical issues, to include 
prosthetics, and;
    4.  Serving as the Nation's primary health care backup in times of 
war or domestic emergency.

    VHA's primary mission is the care of this Nation's sick and 
disabled veterans. As of August 2009, (based on 2008 data) more than 
554,000 New Mexican veterans sought care through VA's outpatient 
services, and some 2,395 recently returning OIF/OEF veterans used VA 
services.
    Nationally, VA projects about one million veterans will receive 
some type of care this year, nearly double the number from a decade 
ago. Much of that increase is due to improved access as VA has shifted 
focus from being an inpatient provider into more of an outpatient 
provider, but the increase is also partially due to the aging veterans' 
population and the influx of our newest war veterans.
    The VFW strongly believes that veterans must have timely access to 
quality health care. The VFW supports expanding rural health care 
options to those veterans who live in rural areas--New Mexico has a 
vast rural landscape and getting care can be difficult in many 
locations. Congress must ensure that gaps in care are recognized and 
filled, Telemedicine opportunities must be expanded, as well as 
additional points of care, so that veterans can be served wherever they 
live.
    VFW Supports H.R. 2879, the Rural Veterans Health Care Improvement 
Act. H.R. 2879 is a comprehensive bill which would improve and expand 
programs offered to veterans living in rural areas like New Mexico. We 
applaud the provision that increases the travel reimbursement rate to 
41.5 cents a mile for those traveling to VA facilities for treatment. 
This is long overdue.
    OEF/OIF Health Care: As of the end of FY 2009, almost 1.1 million 
Operations Enduring Freedom and Iraqi Freedom veterans have left active 
duty and become eligible for VA health care; 46 percent of them have 
sought care from VA.
    This demand for service created some major challenges for VA, which 
to their credit responded correctly by making the health care of OEF/
OIF veterans a top priority. The VFW believes we must do everything we 
can to ensure that these men and women are properly cared for. Their 
care is part of the ongoing cost of war, and the fulfillment of that 
cost--a true national obligation--is central to the work of your 
committees.
    The health care issues this population faces varies from the 
routine to high-interest injuries and programs, such as mental health, 
PTSD, Traumatic Brain Injuries, suicides, and the proper care of women 
veterans.
    Women Veterans Health Care: The percentage of women serving in 
uniform today far exceeds any previous conflict. Approximately 15 
percent of the force is comprised of women, with more entering military 
service every year. Of those who have served in uniform, VA estimates 
that 44 percent have already enrolled in VA for health care, a 
percentage that VA expects to rise. VA continues to expand its female 
health care services, but more needs to be done.
    VA must expand gender-specific and primary health care services 
tailored to women. The VFW supports improved training and certification 
of female veterans' mental health care providers, as well as improved 
programs for the treatment of Post Traumatic Stress Disorder and 
Military Sexual Trauma (MST).
    Legislation (S. 1963) currently pending in Congress would address a 
number of the needs of female veterans. It would mandate studies to 
assess VA's current programs and services for women, to include 
examining specialized programs for treating PTSD, substance abuse and 
mental illness, the availability of obstetric and gynecological care, 
and the possibility of providing a licensed childcare service at VA 
medical facilities.
    The study would also collect data on waiting times, demographics, 
geographic distance and other barriers to care. One of the largest 
hurdles VA faces is providing a woman a degree of privacy inside its 
medical facilities. Properly serving women veterans is a culture change 
to the VA, which for decades functioned in a ``one size fits all'' 
mode. The VA must tailor its programs and services to the specific 
needs of women veterans, and that's why the VFW strongly urges the 
passage of the provisions of this bill.
    Traumatic Brain Injuries (TBI): Explosive blasts from roadside 
bombs and other Improvised Explosive Devices (IED) are causing 
devastating and often permanent damage to the brain tissue of our 
ground forces. Veterans with severe Traumatic Brain Injuries or 
Acquired Brain Injuries (ABI) may need a lifetime of intensive service 
to care for their disabilities, but VA also needs to study and develop 
programs for those suffering from mild or moderate TBI.
    TBI can occur even without other forms of physical injury, making 
detection difficult. It is likely that thousands of OEF/OIF veterans 
may be suffering from blast effects, but are unaware of their 
condition.
    Medical science is lacking on TBI. Recent studies have suggested 
that even mildly impacted veterans can have long-term mental and 
physical health difficulties, and there is no clear treatment model to 
be followed, especially for those with mild or moderate impairment. The 
VFW strongly urges Congress to ensure proper funding for additional 
studies into the treatment of TBI. VA must investigate and research all 
avenues to care for TBI patients, including Hyperbaric Oxygen 
Treatment. Finding optimal treatments will enhance the quality of life 
of veterans and their families.
    Mental Health: We applaud VA for raising the awareness on mental 
health issues. Congress and this Administration have continued to fund 
the growing support networks, medical treatment and services available 
through VA. Currently, VA operates a nationwide network of more than 
190 specialized PTSD outpatient treatment programs. Further, VA's Vet 
Center program operates a system of 232 community-based counseling 
centers, many of which are staffed by combat veterans who--like every 
VFW member--understand that no one goes to war and comes back the same.
    A recent OEF/OIF update shows that more than 48 percent of all 
patients treated at VA have suffered from some form of mental health 
impairment--a staggering number. Among the more than 243,000 OEF/OIF 
veterans who have been diagnosed with some degree of psychological 
symptoms, more than half are suffering from PTSD. War has a profound 
effect on those who defend the Nation. We must do everything we can to 
provide the men and women who are put in harm's way the treatment 
options they need to care for them and their families.
    We need strong outreach and education programs to help eliminate 
the stigma of mental illness and other barriers to care. We need 
meaningful post-deployment health assessments that are designed in a 
way that eliminates the disincentive servicemen and women sometimes 
feel in providing completely honest responses. We need regular 
screenings of all at-risk veterans as part of their routine 
examinations. We need continuing education programs for military 
leaders at all level to understand and help reduce the stigma of 
seeking care and treatment. Care must be available to veterans and 
their families in order to help keep family units intact and 
functional. Providing a stable, safe, and supportive home environment 
is vitally important to the overall effectiveness of a treatment 
program.
    VA must also properly train its staff to ensure that they know how 
to deal with the unique needs of these veterans, and to recognize 
warning signs and other signals to get veterans into the programs they 
need immediately. We need continued emphasis on increasing entry points 
to care, especially at Vet Centers. Access to care must be as 
convenient as possible, which increases the likelihood an at-risk 
veteran will use the service.
    Suicide: The rate of veteran suicides is a national tragedy. VA has 
improved their outreach efforts, notably through the 1-800-273-TALK 
suicide prevention hotline, but more must be done for the active duty 
forces, as well as for the Guard and Reserve, a great number of whom 
reside in rural areas far away from the informal support network of 
fellow veterans, and from the formal services and programs provided for 
their benefit.
    I cannot imagine how depressed someone must be to take their own 
life, but I do know that war is an experience that is never forgotten. 
The vast majority of veterans are able to come to terms with their 
experiences, but not everyone. VFW members know that coming back to the 
Real World is not easy for any generation. That's why I continue to 
urge VFW members everywhere to reach out to our newest veterans to 
welcome them home, to thank them for their service, and to extend a 
hand of friendship and support. We must all do more to ensure every 
veteran, regardless of age, does not feel alone.
    Veterans Homelessness: President Obama recently called for an end 
to veterans' homelessness within 5 years, and his call to action could 
not have been timelier. According to VA estimates, at least 131,000 
veterans are homeless on any given night, and twice as many veterans 
may experience homelessness at some point during the course of a year. 
Recent statistics also indicate that the number of homeless female 
veterans and veterans with dependents are increasing as well. This 
issue is further compounded by poverty, unemployment and the lack of 
affordable housing.
    Homelessness is a nationwide problem that cannot be cured from 
Washington. It must be addressed at the local level and supported with 
resources and services from the Federal Government.
    Major components in reducing veteran homelessness include outreach, 
transitional and permanent housing, training and employment assistance, 
and medical and psychiatric rehabilitation services. Yet many programs 
authorized at the Federal level to assist local communities are under 
funded or are not adequately promoted to community-based help 
organizations. In addition, information pertaining to the availability 
of these programs is also not widely disseminated or readily available 
to homeless veterans living on the streets.
    We strongly support the national call to end veterans' 
homelessness, and we look forward to working with Secretary Shinseki to 
help VA meet its 5-year goal.
EMPLOYMENT ISSUES
    Veterans' employment must be part of any jobs bill because the 
unemployment numbers are shocking--during this economic recession the 
number of unemployed veterans has increased to 1,124,000 as of February 
2010. The unemployment rate of our youngest veterans has reached a 
staggering 21 percent, and there are more unemployed OEF/OIF veterans 
than servicemembers serving in Iraq and Afghanistan. We vigorously urge 
Congress to include the following three policy improvements that have 
proven successful as veterans' employment solutions:

    1.  Broaden the tax credit beyond recently separated veterans to 
encompass all veterans. Nationwide, there are 1.1 million unemployed 
veterans who are motivated, educated and responsible. Encourage 
employers to put hard working veterans at the top of the list by 
increasing the $2,400 credit for hiring a veteran and $4,800 for hiring 
a disabled veteran. Public awareness is central to the solution. We 
must continue to offer incentives to American industry to hire veterans 
FIRST.
    2.  Modernize the Vocational Rehabilitation & Employment (VR&E) 
program, which in 2009 served more than 32,000 disabled veterans by 
training, educating and helping them finding employment. Improve the 
program's effectiveness by providing higher educational stipends that 
are on par with the Post-9/11 GI Bill, eliminate the arbitrary 12-year 
``use or lose'' program window, and provide additional family services, 
such as child care to eligible veterans.
    3.  Lastly, increase opportunities for veterans interested in 
starting businesses, which inevitable leads to veterans hiring other 
veterans. Invest in their ingenuity through proper education, training, 
and access to small business start-up capital. Increase funding and 
access to the Small Business Administration Patriot Express Loan 
Guarantee program.

    Veterans need to be at the forefront of congressional efforts to 
get America back to work. It is legislation like H.R. 4592, introduced 
by Congressman Teague which passed the House last week that begins to 
make it happen. The Energy Jobs for Veterans' Act would authorize $10 
million annually through fiscal 2015 for a Labor Department pilot 
program to encourage the employment of veterans in energy-related jobs. 
The bill establishes a pilot program that would award competitive 
grants to three States which would reimburse energy employers for the 
cost of providing on-the-job training for veterans in the energy 
sector. Through expansion and improvements to existing programs like 
this, Congress can reverse the veteran unemployment rate.
QUALITY OF LIFE ISSUES
    The War on Terrorism has greatly increased the demands of those 
serving on active duty and in the Guard and Reserve. As a result, 
active military and Reserve Component members are deploying at an 
alarming rate to fight the present day war on terror at home and 
abroad. More than one third of today's troops have served at least two 
tours of duty in Operation Iraqi Freedom and/or Operation Enduring 
Freedom.
    The VFW is committed to improving the quality of life for all 
active military and Reserve Component members and their families. The 
VFW is increasing its efforts to provide Guard and Reserve members with 
benefits and entitlements equal to their participation and contribution 
in today's conflicts. We will help ensure that our men and women in 
uniform receive the most modern equipment, best training, and resources 
they need to succeed, and we will continue to urge Congress to provide 
critical support services for the family members of those serving.
    The VFW firmly believes in taking care of the people who accomplish 
the mission, and although most of the below issues fall under the 
purview of your respective Armed Services Committees, each of you has a 
personal stake in a strong and viable military. We view the following 
bullets as essential to ensuring a high-quality, all-volunteer 
military:

    <bullet>  Servicemen and women deserve base pay equity to their 
private-sector workers.
    <bullet>  Benefits and entitlements must keep pace with inflation.
    <bullet>  Increased funding is necessary to upgrade or replace 
military family housing, recreation and work facilities, and equipment 
worn out after almost 9 years of war.
    <bullet>  Congress must lower the retirement pay age from 60 to 55 
for all Reserve Component members. At the very least, Congress must 
make retroactive to Sept. 11, 2001, the FY 2008 defense budget 
provision that allows Reserve Component members to receive retirement 
pay earlier than age 60 by 3 months for every 90 days served on active 
duty in support of a contingency operation.

    Lastly, VFW reminds Congress that legislation for the full 
concurrent receipt of military retirement pay and VA disability 
compensation without offset should be passed and implemented regardless 
of the rating percentage.
    In 2004, Congress passed legislation that gradually phased in by 
2014 the full current receipt of military retirement pay and VA 
disability compensation without offset, but only for those 20-year or 
more retirees who have 50-percent or higher disability ratings. 
Excluded were those service-connected disabled military retirees with 
VA ratings of 40 percent and below, and Chapter 61 retirees who were 
medically retired with less than 20 years, regardless of VA disability 
rating.
    All veterans should be entitled to receive full disability 
compensation concurrently with their military retirement pay, 
regardless of the nature of the disability.
    Mr. Chairman, I again thank you for the honor to present our 
priorities to you. I would be happy to answer any questions that you or 
the members of your committees may have.

                                 <F-dash>

      Prepared Statement of John M. Garcia, Secretary, New Mexico
             Department of Veterans' Services, Santa Fe, NM

    Mr. Chairman, Congressman Teague, my name is John Garcia. I'm the 
Cabinet Secretary for the New Mexico Department of Veterans' Services 
and a past president of the National Association of State Directors of 
Veterans' Affairs (NASDVA). I am honored to present my views and those 
of my fellow State Directors of Veterans' Affairs from all 50 States, 
the District of Columbia, American Samoa, the Northern Mariana Islands, 
Puerto Rico, and the U.S. Virgin Islands. With me today are my 
department's Veterans' Service Officer from the southern New Mexico 
Region: Mr. Dalton Boyd, from our Hobbs office, Mr. J.R. Turner and Ms. 
Virginia Bell from our Las Cruces offices, Mr. Reggie Price from Silver 
City, Mr. Tony Woodard from Alamogordo. Also joining me is Mr. Armando 
Amador, who is a member of the State's Veterans' Advisory Panel.
    State governments and State Departments of Veterans' Services are 
vital partners with the Federal VA in delivering services. We are the 
second largest provider of services to veterans and our roles continue 
to grow. Collectively, States contribute more than $5 billion each year 
in support of our Nation's veterans and their families even in the face 
of constrained budgets. Our duties include honoring and working with 
all veterans and the various veterans' organizations both within our 
States and nationally.
    I applaud the cultural change at Federal VA in recognizing the 
importance partnerships between the VA and State Departments or 
Commissions of Veterans Affairs . . . and the concerned, compassionate 
leadership demonstrated by Secretary Shinseki and his senior leaders. 
On a daily basis, State Directors and their staffs are confronted with 
unique situations in caring for all veterans, which often needs to be 
addressed in a timely manner. Delivery of meaningful services and 
support many times is best orchestrated at the local level. Our 
offices, veterans' services organizations and facilities along with 
Federal VA facilities blanket the country.
                             FUNDING FOR VA
    The New Mexico Department of Veterans' Services appreciates the 
efforts of the Administration and Congress to improve overall funding 
for health care, homeless veterans programs, community clinics, and 
claims processing. Increases in VA funding, as reflected in the FY 2010 
and FY 2011 budgets, provides a 20 percent increase over FY 2009. The 
budgeting change for an advanced appropriation for FY 2012 will provide 
for continuity of programming and services.
    We are serving a new generation of veterans from 8 years of war who 
must receive medical care, establishment of benefits and needed 
assistance transitioning to civilian life after their dedicated 
service. This funding support by Congress will provide the wherewithal 
to address four major areas of emphasis:

    <bullet>  First, the overall access to VA. In essence, VA should be 
the provider of choice for veterans;
    <bullet>  Second, reducing the backlog in claims processing;
    <bullet>  Third, the stated goal by Secretary Shinseki of 
eliminating homelessness among veterans.
    <bullet>  And Fourth, the critical demand for mental health 
services, especially to deal with veterans diagnosed with Post 
Traumatic Stress Disorder (PTSD) and Traumatic Brain Injury (TBI). 
These services need continued funding and focus.
    <bullet>  Likewise, there should be increased funding to veterans' 
health care in rural areas and veteran-owned businesses through SBA.
                        OUTREACH AND TRANSITION
    The New Mexico Department of Veterans' Services supports continued 
efforts to reach out to veterans. I firmly believe all veterans, 
regardless of where they reside, should have equal access to Federal 
and State benefits and services, and that Federal and State Governments 
must collaborate to achieve this goal nationally. Many areas of the 
country are still short-changed due to veterans' lack of information 
and awareness of their benefits. This directly impacts their access to 
VA services. The VA and State Departments of Veterans' Affairs must 
work together to reduce this inequity by reaching out to veterans 
regarding their earned benefits. My department supports implementation 
of a grant program that would allow the VA to partner with the States 
to perform outreach at the local level.
              VETERANS' HEALTH CARE BENEFITS AND SERVICES
    I and all other State Directors of Veterans' Affairs actively 
support increasing veterans' access to VA Health care. This involves 
being engaged with the VA Medical Centers on establishing and locating 
additional Community-Based Outpatient Clinics (CBOC) (including Tribal 
Reservations) with mental health services, expansion of Vet Centers, 
the creation of Veteran Wellness Centers, the deployment of mobile 
health clinics, and the use of telehealth services and innovative 
wellness treatment programs for veterans diagnosed with PTSD where 
appropriate. We applaud the efforts by VA to address the particular 
issue of health care for women veterans and veterans residing in rural 
areas. Future health care funding to expand outreach and access will 
have to include telehealth, tele-home health and tele-medicine. 
Likewise, we support VA contracting-out some specialty care to private-
sector facilities where access is difficult.
    VA Research and Development needs to focus on enhancing the long-
term health and well-being of the veteran population particularly the 
new conditions such as Gulf War Syndrome, PTSD, and the effects of TBI. 
Attention must still be given to the continued funding support of the 
large capital projects identified and recommended by CARES while 
maintaining VHA's infrastructure of 153 hospitals, 951 CBOCs, and 232 
Vet Centers.
    The New Mexico Department of Veterans' Services fully agrees and 
supports the efforts by VA and DoD in developing the seamless 
integration of electronic health records and recommends further 
integration of electronic health records between the VA and SDVA. DoD 
should develop a formal program that would provide State Veterans' 
Affairs Departments with the names of returning servicemembers in order 
for States to connect veterans to all Federal and State benefits and 
services. We support initiatives to ensure that all of our wounded 
warriors who suffer from TBI and PTSD have access to the most advanced 
and current treatment options available regardless of their military 
status. There should be expanded screening for PTSD among all combat 
veterans. We share the concern about the mental health of service 
personnel, especially the number of suicides and long-term effects of 
PTSD. We appreciate the proactive steps such as the suicide hotline and 
the role by all agencies in addressing the underlying causes for 
suicide. We also fully support the concept of Veterans' Wellness 
Centers and its use of alternative treatments as another choice for 
treating veterans diagnosed with PTSD.
    The New Mexico Department of Veterans' Services suggests an in-
depth examination of long-term care, mental health services, and 
Wellness Treatment to include gap analysis clearly identifying where 
services are lacking. Any study should include consultation with SDVA. 
State Veterans' Homes (SVH) are a critical component of long-term 
health care for veterans and a model of cost-efficient partnership 
between Federal and State Governments. State Veterans' Homes bear over 
half of the national long-term health care workload for our infirm and 
aging veteran population. The Federal Government should continue to 
fulfill its important commitment to the States and ultimately to the 
individual veterans in need of this care. We recommend that the VA pay 
States a more equitable per diem rate representing 50 percent of the 
States' average costs, as allowed by law.
    The New Mexico Department of Veterans' Services strongly recommends 
that the VA review the regulations and ensure that their implementation 
of Public Law 109-461 (Veterans Benefits, Health Care, and Information 
Technology Act of 2006) does not threaten the future of State Veterans 
Homes and their continued ability to meet the needs of our veterans. 
Sufficient funding of at least $100M for the SVH Construction Grant and 
Per Diem Program is essential to keep the existing backlog of projects 
from growing to further unacceptable levels. VA should develop a 
strategic plan for long-term care services that maximizes the role of 
State Veterans' Homes in providing care for our Nation's veterans. The 
success of VA's efforts to meet the current and future long-term care 
needs of veterans is contingent upon resolving the current mismatch 
between demand and available funding. The SVH program is the most cost 
effective nursing care alternative.
    And my department supports full reimbursement for care in State 
Veterans Homes for veterans who have a 70 percent or more service-
connected disability or who require nursing home care because of a 
service-connected disability. There are two very important issues to 
implement this reimbursement: first, there needs to be a clear 
definition and understanding for the calculation of the ``full cost of 
care'', and second, the Congressional legislation needs to allow States 
to bill Medicare and Medicaid.
                   COMPENSATION AND PENSION BENEFITS
    The New Mexico Department of Veterans' Services recommends a 
greater role for State Departments of Veterans' Affairs in the overall 
effort to manage and administer claims processing, regardless of 
whether the State uses State Employees, nationally chartered Veterans 
Service Organizations (VSO) and/or County Veterans Service Officers. 
Collectively, we have the capacity and capability to assist the 
Veterans Benefit Administration (VBA). Additionally, a collaborative 
effort should take place on the establishment of standards for 
training, testing, accrediting, and recertifying Veterans' Service 
Officers to include continuing education and performance standards. We 
can support VA in their ``duty to assist'' without diminishing our role 
as the veterans' advocate.
                      HOMELESSNESS AMONG VETERANS
    The New Mexico Department of Veterans' Services applauds the 
initiative by Secretary of Veterans Affairs Shinseki for establishing a 
goal to end homelessness among veterans within 5 years and encourage 
the VA to partner with SDVA. Programs should address the barriers to 
homeless veterans e.g., medical issues (mental and physical), legal 
issues, limited job skills, and work history. We appreciate the 
increased funding for specialized homeless programs such as Homeless 
Providers Grant and Per Diem, Health Care for Homeless Veterans, 
Domiciliary Care for Homeless Veterans, and Compensated Work Therapy, 
and the New Mexico Veterans Integration Center. It is vital to continue 
VA's partnership with community organizations to provide transitional 
housing and the VA/HUD partnership with public housing authorities to 
provide permanent housing for veterans and their families. There should 
be official coordination between the VA Program Office for homeless 
veterans and State Veterans' Affairs Departments for grant applications 
and awards to organizations within their respective State for homeless 
veterans. This would assist in fiscal accountability and local 
oversight of the services provided.
    And my department also supports efforts to diminish the national 
disgrace of homelessness among veterans. We applaud the permanent 
authority for the Homeless Providers Grant and Per Diem Program and the 
proposed authorization to increase annual spending to $130M. SDVAs 
would prefer per diem funds for homeless veterans pass through the 
State to non-profit organizations, ensuring greater coordination.
                               CONCLUSION
    Mr. Chairman and distinguished Members of the Committees, I respect 
the important work that you are doing to improve support to veterans 
who answered the call to serve our great country. As a representative 
of all State Directors of Veterans' Affairs Department, I remain 
dedicated to doing our part, and urge you to be mindful of the 
increasing financial challenge that States face, just as you address 
the fiscal challenges at the Federal level. I would like to emphasize 
again, that the New Mexico Department of Veterans' Services is a 
partner with VA in the delivery of services and care to our Nation's 
patriots.
    This concludes my statement and I stand ready to respond to your 
questions.

                                 <F-dash>

   Prepared Statement of Shirley Bratton, Director, Airman and Family
    Readiness Center, Holloman Air Force Base, NM, Department of the
                 Air Force, U.S. Department of Defense

    My name is Shirley Bratton and I am representing the Airman and 
Family Readiness Center, Holloman Air Force Base, New Mexico, which has 
responsibility for the Transition Assistance Program (TAP) for our 
supported population. Thank you for the opportunity to offer remarks 
regarding support to transitioning military and civilian personnel and 
their families.
                              Demographics
    Holloman AFB currently serves 12,927 personnel, which include: Air 
Force 3,327; civilian employees 1,083; U.S. Dependents 3,233; retirees 
and their family members, 4,000; German Military, 528; German 
dependents, 756. The surrounding Alamogordo area population is 
approximately 11,515. Forty-seven percent (47%) of Alamogordo is 
military related. Our 49th Fighter Wing Mission is: Fly, Fight, and 
Win. We provide Combatant Commanders Combat Ready Airmen, Mission Ready 
MQ-1 & MQ-9 Crews, F-22s, and Basic Expeditionary Airfield Resources 
(BEAR) Forces, Anywhere, Anytime.
                     Transition Assistance Program
    Our Airman and Family Readiness Center (A&FRC) provides 
consultation services to our Commanders and assists them in developing 
and executing policies, programs and processes which enhance 
individual, family, and community readiness. We support and maintain 
mission readiness by assisting individuals and families with adapting 
to the challenges and demands of the military lifestyle. The A&FRC is 
the OPR for the Transition Assistance Program (TAP). The Holloman A&FRC 
is responsible for providing services to separating or retiring 
military and civilian personnel and their families transitioning from 
the military into the private sector and/or civilian lifestyle/
workforce. The focus of TAP is to provide the information, skills, and 
knowledge needed for a successful transition. To ensure we offer the 
necessary services and support required by Air Force Instruction, we 
provide the following: mandatory preseparation counseling, logistical 
support for the Department of Labor (DoL) TAP Workshop, and other 
Airman and Family Readiness Center program support.
                   Mandatory Preseparation Counseling
    We provide mandatory preseparation counseling and supplemental 
preseparation counseling for regular AF members who are retiring, 
regular AF members who are separating for disability, regular AF 
members separating after serving at least 180 days of continuous active 
duty, and Reserve and Air National Guard members who are being released 
from active duty after 180 days of mobilization. Military members are 
required to attend an individual preseparation counseling session or 
small group preseparation briefing no less than 90 days prior to 
separation/retirement. In addition, Public Law 107-103, Veterans 
Education and Benefits Expansion Act of 2001 authorized retirees and 
separatees to participate in transition activities as early as 24 
months for retirees and 12 months for separatees before date of 
separation (DOS). Preseparation counseling sessions include information 
and/or referral on the following topics: career change, employment 
assistance, Federal employment, education and training, relocation 
assistance, health and life insurance, and reserve affiliation. 
Additionally, we offer and assist members with development of an 
Individual Transition Plan, as requested. As required, we document all 
preseparation counseling on appropriate forms. At Holloman in 2009, 225 
members received preseparation counseling while 406 received services 
in 2008.
                              TAP Workshop
    The TAP workshop is a coordinated effort between the State 
Department of Labor (DoL) Offices in New Mexico, the local career 
center, the Veterans Administration, Veteran's Service Office, and 
Holloman's Airman and Family Readiness Center. All of these offices 
meet on a quarterly basis to look at local and national employment 
trends, and review classroom presentations and critiques from the past 
quarter's seminars. If changes need to be made, it is a group effort. 
The close working relationship between TAP workshop presenters and the 
Airman and Family Readiness Center staff ensures a comprehensive, 
quality workshop.
    The Airman and Family Readiness Center provides logistics for the 
TAP Workshop. The Center provides classroom facilities, notification 
and registration of participants, and ongoing publicity. Typically, our 
TAP workshops include members of other Services. Class size ranges from 
30 to 50 participants. Spouses are always highly encouraged to attend. 
The TAP Workshop is held on a monthly basis, and covers such topics as: 
strategies for effective job search, interviewing, effective resume 
development, self-assessment, dress for success, and opportunities for 
Federal employment.
    We are currently conducting ``High Year of Tenure (HYT)'' seminars, 
which were added for our enlisted members affected by the recent 
changes in this policy. During this seminar, attendees receive 
information on the guidelines affecting their separation, resources 
available to them, educational opportunities, financial planning 
information, and relocation assistance. During the HYT seminar, we 
strongly encourage the military member and spouse to attend the three 
day TAP workshop to get more detailed information on transition 
programs and services. In the past, we have also provided special 
seminars to prepare our officers and enlisted members when the Air 
Force had ``Force Shaping'' programs.
    In Alamogordo we have collaborated with General Atomics 
Aeronautical Systems, Inc., Lear Siegler, National Enrichment Facility, 
and local businesses to host job fairs. We collaborated with the Small 
Business Administration to host ``Start Your Own Business'' workshops 
and we have worked with educational institutes to share educational 
opportunities available.
    In 2009, Our Holloman TAP Workshop attendees listed the top 3 
reasons they were leaving the Air Force as follows:

    a.  Retirees: High Year of Tenure
    b.  Separatees: End of commitment
    c.  Retirees/Separatees: High Operations Tempo
             Disabled Transition Assistance Program (DTAP)
    The Disabled Transition Assistance Program was specifically 
developed for servicemembers who are separating or retiring with 
medical disabilities. At Holloman the briefings are open to anyone 
planning to file a claim. The program provides members with specialized 
information and application procedures about the VA Vocational 
Rehabilitation Program. DTAP also explains the process on obtaining 
individual counseling on handling a disabling situation. Presenters are 
from the Department of Labor and VA. Briefings are held once a month 
following the TAP workshop. In 2009, 300 transitioning military members 
attended. During DTAP, our VA representative answers questions on 
applying for medical disability and also reviews and assists members 
with completing their disability claim forms. Our VA representative 
goes above and beyond by gathering medical records of those retiring or 
separating who are staying in New Mexico, to start the disability 
compensation process.
                   Air Force Wounded Warrior Support
    We provide individual, personalized support to our Air Force 
Wounded Warriors. These Airmen are our top priority. The previously 
mentioned services are provided to our wounded warriors and their 
families along with financial counseling, relocation services, 
education services, and employment assistance; we ensure they are 
linked with the appropriate services from various helping agencies, as 
needed, and we follow up to ensure they received the assistance needed. 
Additionally, our Air Force Personnel Center Air Force Wounded Warrior 
Program staff provides follow-up services for no less than 5 years 
after separation/retirement.
                                Feedback
    Historically, TAP receives a lot of positive feedback. During the 
TAP workshop, participants complete a survey to determine the impact of 
participating in the program.
    Our participants have said or written the following concerning the 
TAP Workshop:

    <bullet>  ``Excellent Workshop.''
    <bullet>  ``Job internet search will help me find a job when I 
relocate from Holloman AFB.
    <bullet>  ``SBA--good briefing for those looking to start their own 
business.''
    <bullet>  ``I really enjoyed this workshop. It was very informative 
and educational. I highly recommend this class to others I know that 
are separating!!''

    During Preseparation Counseling sessions, our participants have 
said the following:

    <bullet>  ``A lot of good information''
    <bullet>  ``Great to have this since you only retire once from the 
military''
    <bullet>  ``I have a lot of work to do to prepare for retirement''

    During other separate workshops/classes, which often spouses 
attend, such as resume writing, house buying, plan my move, and stress 
management, the feedback is always ``this was very helpful''.
    Annually our TAP Workshop is evaluated by Veteran, Employment & 
Training Services. During the last review, we were cited as offering an 
``Outstanding'' TAP workshop.
                      Other A&FRC Support Services
    Our first term Airmen attend a briefing called ``Informed 
Decision'' given by the Career Assistance Advisor. We speak to the 
Airmen on things to consider when deciding to reenlist or separate, 
such as: medical cost, day care, housing etc. The information provided 
gives our Airmen an opportunity to look at their options for staying in 
or leaving the military. During the briefing, attendees are also 
encouraged to attend the TAP workshop to help them make an informed 
decision.
    In accordance with our Air Force Instruction for Airman and Family 
Readiness Centers, (AFI 36-3009), we offer additional programs and 
services to further ensure the needs of our transitioning Airmen and 
their families are being met:
    Employment Assistance supports customers in achieving short and 
long-term employment, education/training, and career goals. 
Information, skills development, and resources are available to prepare 
customers for local and long-distance job searches, self-employment, 
and/or small business and entrepreneurial efforts.
    Air Force Aid Society (AFAS) provides emergency financial 
assistance, interest free loans, and grants.
    Relocation Assistance provides relocation information, education, 
and skills development for customers, to ensure a smooth relocation.
    Personal Financial Readiness Services offers information, 
education, and personal financial counseling to help individuals and 
families maintain financial readiness.
    Personal and Family Life Education Services provides prevention/
enrichment education and consultation designed to enhance social 
competence for individuals, couples, and families, and build resilience 
skills that assist in navigating a mobile, military lifestyle. Services 
focus on assisting customers to develop and improve interpersonal 
competencies and social relationship skills throughout the life cycle.
    Military Child Education support includes civilian and military 
School Liaison Officers, who advocate for the educational needs of 
military children and will assist Airmen and families with information 
and referrals regarding local school districts and other educational 
options including home schooling, private schools, charter schools, and 
cyber schools.
    Personal and Family Readiness Services provides mobility and 
deployment assistance to help members and their families meet pre-
deployment, sustainment, reintegration, and post deployment challenges. 
This includes pre-deployment education briefings, sustainment support 
services, and return/reunion/reintegration support.
    Our Major Command also funds Executive TAP Seminars at other select 
locations, specifically targeted to senior military members (Colonels 
and above, and Chief Master Sergeants).
    Team Holloman is proud to provide programs, services, and support 
to our transitioning military members and their families. We appreciate 
the policy guidance, support and resources we receive from the many 
government agencies that enable us to provide the necessary assistance 
to facilitate a smooth transition for our military members and their 
families. They have served our Nation well, and we are grateful to be 
able to provide the support and services needed as they transition.

                                 <F-dash>

   Prepared Statement of Susan P. Bowers, Director, Veterans Affairs
     Southwest Health Care Network, Veterans Health Administration,
                  U.S. Department of Veterans Affairs

    Mr. Chairman and Members of the Subcommittee, thank you for the 
invitation to appear before you today to discuss how the Department of 
Veterans Affairs (VA) is making health care more accessible to Veterans 
in New Mexico. I am accompanied today by George Marnell, Director of 
the New Mexico VA Health Care System (NMVAHCS). I appreciate the 
opportunity to discuss our ongoing efforts to ensure that Veterans 
receive timely access to the highest quality care, benefits and 
services we can provide. NMVAHCS is a proud member of the VA Southwest 
Health Care Network, Veterans Integrated Service Network (VISN) 18, 
located in Mesa, Arizona. My testimony will provide an overview of 
NMVAHCS and explain programs and strategies to meet the challenges 
associated with providing quality care to Veterans across the vast 
geographic area of New Mexico.
    NMVAHCS serves Veterans in New Mexico through VA-staffed community-
based outpatient clinics (CBOC) in Artesia, Farmington, Gallup, Raton, 
Santa Fe and Silver City, and through contract CBOCs in Alamogordo, 
Durango, Espanola, Las Vegas and Truth or Consequences. The main campus 
of the NMVAHCS is the Raymond G. Murphy VA Medical Center (VAMC) in 
Albuquerque; this is a tertiary care referral facility for Veterans 
receiving care throughout New Mexico, including those seen by the 
Clovis CBOC managed by the Amarillo VA Health Care System, the Hobbs 
CBOC managed by the West Texas VA Health Care System, and the Las 
Cruces CBOC, managed by the El Paso VA Health Care System.
    NMVAHCS is actively deploying approaches to enhance care for 
Veterans who do not reside near our main facility in Albuquerque. Many 
enhancements in quality have been made to CBOCs and rural health 
programs throughout New Mexico. For example, NMVAHCS has significantly 
enhanced the quality of care in all CBOCs as measured by numerous 
clinical care performance measures. We accomplished this through 
careful coordination of several initiatives throughout the ambulatory 
care setting. Our facilities now meet more than 85 percent of targeted 
performance metrics, compared to just over 14 percent in fiscal year 
(FY) 08. This significant turnaround was highlighted during a VA 
regional conference on systems redesign in October 2009.
    NMVAHCS also has installed state-of-the-art telemedicine equipment 
in all of its six VA-staffed CBOCs (Artesia, Farmington, Gallup, Raton, 
Santa Fe, and Silver City), as well as the Durango contract CBOC. 
Currently tele-mental health services are available, and we have 
secured equipment and staff to reduce the need for Veterans to travel 
long distances to the Albuquerque VAMC. The Alamogordo contract CBOC is 
very close to installing and activating equipment to provide tele-
mental health services. We are continuing to develop a tele-dermatology 
program, and we have purchased cameras and lighting equipment for all 
11 CBOCs. CBOC staff will use the equipment to take photographs of skin 
conditions and send these images electronically to the dermatologist at 
the Albuquerque VAMC. The dermatologist will review the photographs and 
make a medical determination for a treatment plan with the primary care 
provider in the rural location.
    NMVAHCS has installed and is using tele-retinal cameras for retinal 
exams of diabetic patients in five of its six VA-staffed CBOCs to 
eliminate the need to travel to Albuquerque for these exams; VA is 
leasing additional space at the Santa Fe CBOC to allow it to offer 
tele-retinal services in April 2010. NMVAHCS has greatly expanded the 
number of Veterans receiving Care Coordination Home Telehealth (CCHT), 
which provides devices Veterans can use in their home to communicate 
with dedicated nursing and physician staff at the Albuquerque VAMC. 
This program grew 24 percent in FY 2009, and NMVAHCS ended the year 
with an average daily census of 177.
    Additionally, through a national VHA rural health initiative, 
NMVAHCS has secured $2,337,356 in new funding to further expand this 
program to 500 additional Veterans. NMVAHCS has also received $3.8 
million from VA's national Office of Rural Health to expand 
telemedicine coordination with the Albuquerque VAMC. These telemedicine 
services will include pre- and post-operative care, education and 
follow-up for Veterans. High resolution telemedicine units for surgical 
specialties consultative purposes have been purchased for all 11 CBOCs 
in New Mexico. The telemedicine units, called total examination 
cameras, are capable of examining ears, skin, mouth, feet, and surgical 
sites for post-operative evaluation.
    Based on the 2009 Community Homelessness Assessment, Local 
Education and Networking Groups (CHALENG) Survey, there are 
approximately 460 homeless Veterans in New Mexico on any given night, 
many of whom usually reside in urban areas. NMVAHCS works with 
community providers across the State to address Veterans' homelessness 
issues. VA supports 80 beds for homeless Veterans through the Grant and 
Per Diem program, and another 40 beds through the Domiciliary 
Residential Rehabilitation Treatment Program. There are 105 Housing and 
Urban Development/VA Supportive Housing vouchers available to homeless 
Veterans in New Mexico.
    The NMVAHCS Women Veterans Program offers comprehensive primary 
care, gynecology, cancer screening, and preventive care, while also 
collaborating with behavioral health programs to offer counseling. 
NMVAHCS' Mammography Program is certified by the Mammography Quality 
Standards Act and accredited by the American College of Radiology. 
NMVAHCS' Women's Comprehensive Care Clinic has provided assistance to 
several homeless women Veterans and provided referral or treatment as 
necessary. Of the 16,000 women Veterans in New Mexico, 3,694 are 
enrolled in VA for health care, and 2,902 are active users. NMVAHCS is 
located near Kirtland Air Force Base, and many women Veterans return 
and settle in Albuquerque after deployment. VA has seen a six percent 
increase in the number of women Veterans over the last year, and it 
expects to serve more than 5,750 women Veterans by 2014.
    VA is also making improvements for Veterans who need to travel long 
distances for specialized care in Albuquerque. Congress provided 
funding to raise the mileage reimbursement rate from 11 cents per mile 
to 41.5 cents per mile to help defray travel costs for those Veterans 
who are eligible for beneficiary travel. In February 2009, NMVAHCS 
opened an 8-room, 16-bed, on-campus lodging facility with private rooms 
and baths called Heroes Hall. We recently finished construction on 
Phase 2 of this initiative, opening two additional rooms for occupancy. 
We expect to fully activate this facility by May 2010; this will double 
the current capacity and be sufficient to accommodate increased demand. 
This temporary lodging is furnished at no charge through the NMVAHCS 
when Veterans are traveling more than 120 miles one way to the NMVAHCS 
to receive medical care or a compensation and pension examination. 
Veterans who are often accompanied by an adult care provider or a 
significant other can now spend the night on the hospital grounds just 
before or after their appointments.
    VISN 18 and NMVAHCS continuously strive to improve access for 
Veterans in rural areas through strategic planning initiatives that 
identify outreach and rural health opportunities. We appreciate the 
opportunity to meet with you and to hear your thoughts, as well as the 
opinions of the other witnesses here today. Mr. Chairman, this 
concludes my statement. I am pleased to answer any questions you may 
have.

                                 <F-dash>

      Prepared Statement of Grant Singleton, Director, Albuquerque
  Veterans Affairs Regional Office, Veterans Benefits Administration,
                  U.S. Department of Veterans Affairs

    Congressman Teague and Members of the Subcommittee, it is my 
pleasure to be here today to discuss our efforts to meet the needs of 
Veterans residing in New Mexico.
    The Albuquerque Regional Office (RO) administers the following 
benefits and services to approximately 217,000 Veterans and their 
families in New Mexico:

    <bullet>  Disability compensation and pension for Veterans and 
dependents;
    <bullet>  Vocational rehabilitation and employment (VR&E) 
assistance; and,
    <bullet>  Outreach for all Veteran and survivor benefits.

    Our goal is to deliver these comprehensive and diverse non-medical 
benefits and services in a timely, accurate, and professional manner.
Outreach Efforts
    The Albuquerque RO conducts extensive outreach. We provide 
Transition Assistance Program and Disabled Transition Assistance 
Program briefings at each of the three Air Force bases (AFB) in New 
Mexico; Cannon AFB, Holloman AFB, and Kirtland AFB. These briefings 
provide comprehensive non-medical benefit and service information to 
servicemembers who will soon be released from active duty. The RO 
provides the same information to the many National Guard members and 
Reservists as they return to their civilian lives. The most recent 
briefing was on Saturday, March 13 to 155 servicemembers returning from 
Iraq. During fiscal year (FY) 2009, the RO provided approximately 60 
briefings to almost 2,000 attendees. In FY 2010, our outreach 
specialists have already provided 30 briefings to approximately 750 
attendees.
    The RO works hard to demonstrate to Native American Veterans that 
the Department of Veterans Affairs (VA) is a caring agency dedicated to 
assisting them in any way possible to make a successful transition into 
civilian life. Many Native American Veterans live in rural areas. 
Accordingly, our outreach specialists travel to community centers to 
assist them in applying for compensation and pension benefits and 
medical care. The Albuquerque RO is challenged to serve this deserving 
population because of the remoteness of their communities and the 
number of tribes in the State. In FY 2009, approximately 40 outreach 
events were conducted for over 1,500 Native American Veterans. For this 
fiscal year to date, 10 outreach events were conducted, reaching 
approximately 375 Native American Veterans. We need to continue to 
increase efforts to reach the remote Native American Veteran 
population. The RO recently assigned two additional employees to their 
outreach program and purchased a vehicle to cover these highly rural 
areas.
    On October 23, 2009, the RO supported a Homeless Veteran Stand Down 
in conjunction with many Veteran Service Organizations and the Veterans 
Health Administration (VHA). Approximately 500 Veterans received 
assistance in completing claims for benefits and identification cards, 
along with a substantial meal, warm clothing, shoes, and haircuts. 
Albuquerque's outreach efforts served over 700 homeless veterans in FY 
2009, and almost 600 in this fiscal year.
    RO employees visit the VA Medical Center monthly to reach out to 
Operation Iraqi Freedom/Operation Enduring Freedom Veterans and do 
everything possible to expedite the receipt of their benefits.
    We also work closely with congressional liaisons and attend 
outreach events sponsored by congressional offices. In February 2010, 
RO employees attended job fairs and town hall meetings where 
approximately 1,500 were in attendance.
Vocational Rehabilitation & Employment (VR&E)
    Within Albuquerque's Vocational Rehabilitation & Employment (VR&E) 
division is a Job Lab with Internet access, printers, and various 
materials on job seeking. The Job Lab is open to all Veterans seeking 
employment. The VR&E Employment Coordinator and the New Mexico 
Workforce Solutions Disabled Veterans Outreach Program representative 
are available to answer questions and provide information and 
assistance.
    We are highly successful in working with Federal agencies in New 
Mexico, including the U.S. Forest Service, Kirtland Air Force Base, and 
the Bureau of Reclamation to place disabled Veterans in suitable jobs. 
During the past year, 12 disabled Veterans found employment in a 
Federal posting. VR&E staff aggressively market the program to Federal 
employers, which also helps Veterans participating in State vocational 
rehabilitation programs.
    VR&E staff recently attended an all day event in Las Cruces in 
support of the Coming Home to Work program, where Veterans were 
informed about VR&E services available to them. A monthly Employment 
Workshop is held in collaboration with the Department of Workforce 
Solutions for Veterans within the VR&E program as well as all Veterans 
who have an interest in learning basic interviewing skills, resume 
writing, and personal presentation.
Staffing
    The Albuquerque RO hired eight employees as a result of the 
American Recovery and Reinvestment Act. The employees are making direct 
contributions to improving claims processing by assisting with 
development of claims and mail processing. Currently, 81 employees work 
in the Veterans Service Center, and 11 VR&E employees work in the 
Albuquerque, Las Cruces, and Santa Fe offices.
Conclusion
    The Albuquerque RO is committed to providing Veterans and their 
families all the benefits and services available to them in a timely, 
accurate, and professional manner. This concludes my testimony. I 
appreciate being here today and look forward to answering your 
questions.

                                 <F-dash>

      Prepared Statement of Guy McCommon, Team Leader, Las Cruces
      Vet Center, Readjustment Counseling Service, Veterans Health
          Administration, U.S. Department of Veterans Affairs

    Good Afternoon, Mr. Chairman: Thank you for allowing me to appear 
before you today to discuss the New Mexico Vet Centers' efforts to 
improve rural access and outreach, as well as transition from 
servicemember to Veteran.
    VA's Vet Centers are a different kind of environment--a caring, 
non-clinical setting--in which Veterans can receive care. Vet Centers 
serve combat Veterans and their families by providing quality 
readjustment counseling. Vet Center care consists of a continuum of 
social and psychological services including community outreach to 
special populations and referrals to services with community agencies. 
VA maintains a trained and qualified cadre of professional mental 
health professionals and other licensed counselors to provide 
professional readjustment counseling for combat-related PTSD and co-
morbid conditions such as depression and substance use disorders. 
Nationally, over 60 percent of Vet Center direct readjustment 
counseling staff are qualified mental health professionals (licensed 
psychologists, social workers and psychiatric nurses). When necessary 
for the treatment of more complex mental health conditions, Vet Centers 
refer Veterans to VA medical facilities for mental health services, and 
promote active partnerships with their VA mental health counterparts to 
better serve Veterans.
    There are four Vet Centers located in New Mexico: Farmington, Santa 
Fe, Albuquerque and Las Cruces. The Santa Fe and Las Cruces Vet Centers 
are each home to a Mobile Vet Center. A core value of the Vet Centers 
is to promote access to care by helping Veterans and families overcome 
barriers that impede the receipt of needed services. To extend the 
geographical reach of Vet Center services, VA has implemented 
initiatives to ensure that new Operation Enduring Freedom/Operation 
Iraqi Freedom (OEF/OIF) combat Veterans can access its care. VA's Vet 
Centers in New Mexico employ 15 counselors, 4 office managers, 2 Mobile 
Vet Center drivers, and 1 Global War on Terrorism (GWOT) Outreach 
Technician. Twelve of the clinicians are Licensed Clinical Social 
Workers, 8 are bilingual, and 13 are Veterans.
    VA has extensive plans to provide outreach services to rural 
communities in New Mexico. In southern New Mexico, the Las Cruces Vet 
Center provides weekly outreach and clinical services to Veterans in 
the Silver City area (Grant County) and the Truth or Consequences 
community (Sierra County). They also provide outreach to communities 
such as Roswell, Artesia, Alamogordo, Lordsburg and Deming, NM. The two 
Mobile Vet Centers in New Mexico have been providing outreach and 
counseling services in the rural communities of New Mexico and several 
American Indian Pueblos. A third Mobile Vet Center, housed in Chinle, 
Arizona on a Navajo Reservation, also provides outreach coverage to the 
northwest corner of New Mexico. Mobile Vet Center Outreach events have 
been staged in 22 different New Mexico communities. Most of these 
efforts have coincided with events such as the Moving Wall, Veterans 
Day Parade, Run for the Wall, State and local Fairs and Yellow Ribbon 
gatherings. Other events included a day at the Zoo for OEF/OIF Veterans 
in El Paso, Beyond the Yellow Ribbon Event for women Veterans, the 3rd 
Annual Southern Arizona gathering of American Indian Veterans, and the 
11th Annual Native American Symposium in Albuquerque. The Mobile Vet 
Centers have been well utilized for over 79 different events in the 
past year alone. Outreach to other special populations includes visits 
to some communities that have primarily Hispanic Veterans, homeless 
Veteran Stand Downs in Albuquerque, events at Veterans Service 
Organization posts, and other Veteran-oriented events.
    The Santa Fe Vet Center has a GWOT Outreach Technician who provides 
outreach to National Guard and Reserve units throughout the State as 
well as at active duty military sites. Several local units were 
deployed to combat last year and are scheduled to return home in June 
2010. The GWOT Outreach Technician is working with the New Mexico 
National Guard State Family Program Director and staff to provide 
outreach and counseling services to all units upon their return. The 
GWOT Outreach Technician from Santa Fe attended 54 different welcome 
home events at National Guard and Reserve units throughout the State, 
Veterans Club gatherings at Universities, events sponsored by community 
hospitals for Veterans, and two Pow Wows for Native American Veterans 
sponsored by local Tribes. He also has been the guest on two radio 
programs and attended a variety of other community meetings to speak 
about Veteran's issues and services.
    The New Mexico Vet Centers have provided outreach and services at 
all Post-Deployment Health Reassessments (PDHRA) and Yellow Ribbon 
Reintegration Program events held by National Guard and Reserve units 
in New Mexico. VA's New Mexico Vet Centers also provided counseling 
services to 303 recently returned combat Veterans in fiscal year (FY) 
2009 and 155 in the first 5 months of FY 2010.
    Thank you again for the opportunity to appear before you. I am now 
prepared to answer your questions.

                                 <all>

</pre></body></html>
